<html>
<title> - THE ADMINISTRATION'S PROPOSED RESTRICTIONS ON POLITICAL SPEECH: DOUBLING DOWN ON IRS TARGETING</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
    THE ADMINISTRATION'S PROPOSED RESTRICTIONS ON POLITICAL SPEECH: 
                     DOUBLING DOWN ON IRS TARGETING

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON ECONOMIC GROWTH,
                  JOB CREATION AND REGULATORY AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2014

                               __________

                           Serial No. 113-93

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
87-351                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1f786f705f7c6a6c6b777a736f317c707231">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

  Subcommittee on Economic Growth, Job Creation and Regulatory Affairs

                       JIM JORDAN, Ohio, Chairman
JOHN J. DUNCAN Jr., Tennessee        MATTHEW A. CARTWRIGHT, 
PATRICK T. McHENRY, North Carolina       Pennsylvania, Ranking Minority 
PAUL GOSAR, Arizona                      Member
PATRICK MEEHAN, Pennsylvania         TAMMY DUCKWORTH, Illinois
SCOTT DesJARLAIS, Tennessee          GERALD E. CONNOLLY, Virginia
DOC HASTINGS, Washington             MARK POCAN, Wisconsin
CYNTHIA LUMMIS, Wyoming              DANNY K. DAVIS, Illinois
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina
KERRY BENTIVOLIO, Michigan
RON DeSANTIS, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 27, 2014................................     1

                               WITNESSES

Ms. Jenny Beth Martin, President and Co-Founder, Tea Party 
  Patriots
    Oral Statement...............................................     7
    Written Statement............................................    10
Ms. Diana Aviv, President and CEO, Independent Sector
    Oral Statement...............................................    15
    Written Statement............................................    17
Ms. Gabriel Rottman, Legislative Counsel/Policy Advisor, American 
  Civil Liberties Union
    Oral Statement...............................................    24
    Written Statement............................................    26
The Hon. Wayne Allard, Vice President, Government Relations, 
  American Motorcyclist Association
    Oral Statement...............................................    53
    Written Statement............................................    55
Mr. James R. Mason, III., Senior Counsel, Home School Legal 
  Defense Association
    Oral Statement...............................................    57
    Written Statement............................................    59
Mr. Allen Dickerson, Legal Director, Center for Competitive 
  Politics
    Oral Statement...............................................    64
    Written Statement............................................    66

                                APPENDIX

The Hon. Jim Jordan, a member of Congress from the State of Ohio, 
  Opening Statement..............................................   130
The Hon. Darrell Issa, a member of Congress from the State of 
  California, Opening Statement..................................   132
Letter from Alastar M. Fitzpayne to Chairman Dave Camp, submitted 
  by Chairman Jordan.............................................   133
Article in the Washington Post: ``Treasury and IRS rules on 
  Nonprofits' Political Activity Miss the Mark'', by Gary D. Bass 
  and Diana Aviv, submitted by Mr. Cartwright....................   138
Email for the record by Richard W. Painter, submitted by Mr. 
  Cartwright.....................................................   140


    THE ADMINISTRATION'S PROPOSED RESTRICTIONS ON POLITICAL SPEECH: 
                     DOUBLING DOWN ON IRS TARGETING

                              ----------                              


                      Thursday, February 27, 2014,

                  House of Representatives,
   Subcommittee on Economic Growth, Job Creation & 
                                Regulatory Affairs,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Jim Jordan 
[chairman of the subcommittee] presiding.
    Present: Representatives Jordan, DeSantis, DesJarlais, 
Collins, Meadows, Bentivolio, Cartwright, and Connolly.
    Also Present: Representative Issa.
    Staff Present: Lawrence J. Brady, Majority Staff Director; 
David Brewer, Majority Senior Counsel; Sharon Casey, Majority 
Senior Assistant Clerk; Drew Colliatie, Majority Professional 
Staff Member; Adam P. Fromm, Majority Director of Member 
Services and Committee Operations; Christopher Hixon, Majority 
Chief Counsel for Oversight; Katy Rother, Majority Counsel; 
Laura L. Rush, Majority Deputy Chief Clerk; Rebecca Watkins, 
Majority Communications Director; Meghan Berroya, Minority 
Counsel; Aryele Bradford, Minority Press Secretary; Susanne 
Sachsman Grooms, Minority Staff Director/Chief Counsel; Adam 
Koshkin, Minority Research Assistant; Brian Quinn, Minority 
Counsel; and Donald Sherman, Minority Counsel.
    Mr. Jordan. The committee will come to order.
    We want to thank our distinguished panel of witnesses for 
being here today. Members will be trickling in and out. You 
know how these things are; maybe you have testified before. 
Members' schedules are busy. But we want to get started and 
respect everyone's time. We will do opening statements, then we 
will get right to each of you and introduce you and swear you 
in here in just a second.
    Today's hearing continues the committee's ongoing oversight 
of the IRS's inappropriate treatment of conservative groups 
applying for tax-exempt status. The IRS has doubled-down on its 
targeting and is now seeking to codify their actions.
    On November 29th, 2013, the IRS issued a proposed 
regulation under the guise of clarifying the tax-exempt 
determinations process. As we will hear today, this rule, if 
implemented, will stifle speech of social welfare organizations 
and will systematize the targeting of nonprofit organizations.
    The Administration is using the controversy surrounding the 
targeting of tax-exempt groups as a pretense for the need for 
this regulation. In reality, this is Lois Lerner's final act in 
the Administration's effort to curb political speech. We note 
that this effort was in the works well before the release of 
the inspector general's audit. Through the committee's 
investigation, we have uncovered evidence that Ms. Lerner 
sought to crack down on political speech by certain nonprofit 
groups as early as 2010, well before the rule was made public.
    Emails show the IRS was surreptitiously working on this 
effort off-plan. In fact, the committee's investigation has 
revealed that the Administration secretly considered additional 
regulation of 501(c)(4) organizations for years. In transcribed 
interviews, Treasury officials have confirmed that work on 
changing the rules for social welfare groups started long 
before the inspector general's report. For example, Ruth 
Madrigal, a senior official in the Treasury Department's Office 
of Tax Policy, confirmed that she suggested that Treasury 
conduct its work offline in June of 2012. She testified that we 
had had requests to do guidance on this topic.
    Former IRS acting commissioner provided further context for 
the request that the IRS and the Treasury received. He 
testified that as of the fall of 2012, ``So I am not sure there 
was a problem, right? I mean, we had Senator Levin complaining 
bitterly about our regulation that was older than me. We were 
being asked to take a look at that, and so we were thinking 
about what things could be done.''
    Think about that. The IRS and the Treasury, under the guise 
of responding to the targeting scandal, had proposed a 
crackdown on political speech that has secretly been in the 
works for years and is the result of political pressure from 
Democrats in Congress and left wing special interest groups.
    A chilling effect can already be seen. Groups who have 
engaged in political speech for years are now in limbo about 
how to proceed for fear that the IRS will retroactively look 
back at their activities through the lens of the new regulation 
and determine they are in violation of their tax status.
    The rule is hugely unpopular, receiving over 94,000 
comments. Record number of comments; highest number the IRS has 
ever received on any proposed rule. My understanding is the 
second highest in the history of any Government agency. Ninety-
four thousand comments. And rest assured the vast majority of 
those are negative.
    The rule has been criticized by groups across the political 
spectrum, as well as by groups who have nothing to do with 
politics and simply advocate for causes their members believe 
in, such as some of our witnesses here today. Make no mistake, 
the proposed regulation will seriously hinder the freedom of 
speech guaranteed by our Constitution. I think this is 
important. You think about the First Amendment and the rights 
we enjoy as Americans: freedom of religion, freedom of press, 
freedom to assemble, freedom of speech. And the most 
fundamental component of that freedom of speech right is your 
right to speak out against your Government; your right to 
exercise speech that is political in nature. And this 
Government, this IRS is targeting that very thing, and that is 
why this hearing is so important and why I am glad that our 
witnesses are with us today.
    I want to thank all of you for being here. We appreciate 
your courage in speaking out against this effort to crack down 
on your ability to engage in political speech, and we will do 
everything in our power to ensure that you continue to be able 
to exercise this fundamental constitutional right.
    With that, I would yield to the ranking member for his 
opening statement.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Good morning to all the witnesses. Thank you for being 
here. Look forward to hearing your testimony.
    Today's hearing is intended to discuss the merits of the 
IRS and Treasury Department's proposed rule of clarifying the 
definition of political campaign activity for 501(c)(4) 
organizations. This rule is a positive first step towards 
providing much-needed clarity and guidance for tax-exempt 
social welfare organizations. Unfortunately, the title of 
today's hearing--you know, here in Washington it is not like 
jury trials; we start off our hearings with titles. You know, 
if you showed up at a criminal defense trial and it said the 
title of our trial is why the defendant is a criminal and must 
go to jail. We are not quite so open-minded here in Washington. 
The title of today's hearing is a not-so-subtle clue that some 
members will use these proceedings as another opportunity to 
lob bombs at the White House and the Obama Administration.
    As I explained yesterday, after multiple hearings, 
extensive witness interviews, and the review of thousands of 
documents, this committee has uncovered no evidence that the 
White House was involved in the treatment of tax-exempt 
organizations or their applications. Likewise, the Treasury 
Inspector General for Tax Administration, TIGTA, has repeatedly 
testified that he found no evidence of outside influence, White 
House or otherwise, in how the IRS personnel processed 
applications.
    What the IG's report on exempt organizations did find is 
that the applications experienced delays not because of 
political bias, but in part because the IRS employees struggled 
without specific guidance on how to determine whether social 
welfare was ``the primary activity'' of these organizations. As 
Mr. George explained, Treasury regulations state that IRC 
Section 501(c)(4) organizations should have social welfare as 
their primary activity.
    However, the regulations do not define how to measure 
whether social welfare is an organization's primary activity. 
As a result of this longstanding ambiguity, the IG recommended 
that the IRS create better guidance on how to process 501(c)(4) 
applications and work with Treasury to develop guidance on how 
to measure what is primary activity. In direct response to the 
IG's recommendations, the IRS and Treasury developed a proposed 
rule to clarify the definition of political campaign activity 
and requested public input to ensure the standards are clear 
and can be applied consistently.
    Despite these facts, on February 4th, Chairman Jordan and 
Issa demanded that the IRS Commissioner Koskinen withdraw the 
proposed rule, claiming it was an attempt to, as we heard this 
morning, ``stifle political speech'' by conservative 501(c)(4) 
organizations. There is no evidence to support my colleagues' 
partisan accusation, but it seems the House Republicans will 
stop at nothing to keep the American public in the dark about 
dark money and always in a high state of political outrage.
    Furthermore, there is nothing in the proposed rule that 
restricts any form of political speech. Political groups can 
still be tax-exempt organizations under the IRC Section 527. 
They simply would be required to disclose their donors. And 
that is the big point today, is that they don't want their 
donors disclosed. We are not here about stifling free speech, 
ladies and gentlemen. To any Americans listening to this 
subcommittee hearing, what is being stifled, what is being 
attempted to be stifled is stifling your freedom to find out 
where the money behind political campaigns is coming from. This 
is an attempt to crack down on transparency in American 
elections. Make no mistake, that is what this is about, to hide 
where the dark money is coming from.
    It is counterproductive to demand that the proposed rule be 
withdrawn, especially in light of the very real and clear need 
for more guidance on the issue. Regardless of our specific 
views on the proposed rule, I hope we can at least agree that 
IRS employees and organizations seeking 501(c)(4) tax-exempt 
status need to have clear, easy to follow guidance about what 
is permissible and impermissible. Many, including me, have also 
called for a return to the language of the 501(c)(4) statute 
itself, requiring that these organizations be ``operated 
exclusively for the promotion of social welfare,'' instead of 
using the current primary activity test.
    To this end, I have introduced the Open Act, which would 
require both corporations and unions to disclose their 
political spending to shareholders and members. It would also 
cap political spending by 501(c)(4) organizations at 10 percent 
of annual expenditures. And this is a legislation that will 
help shine a light on that dark money funding political 
activities in the United States of America.
    I look forward to hearing from the witnesses today on this 
important issue and I yield back to the chairman.
    Mr. Jordan. I thank the ranking member's comments. I 
certainly appreciate the ranking member, but his revisionist 
history is astounding. The idea that conservative groups were 
not targeted when there was a specific list, called the Bolo 
List, which had these terms on it: 9/12, Tea Party, and 
patriot, and somehow that was not targeting just dismisses the 
facts that I think the vast majority of Americans understand 
and certainly many of those 94,000 comments understand.
    With that, I would yield to the chairman of the full 
committee for his opening statement.
    Mr. Issa. Thank you. Thank you so much, Mr. Chairman.
    I listened with interest at your ranking member and, Mr. 
Cartwright, you are certainly entitled to your opinions. They 
couldn't be more wrong, but you are entitled to them. Dark 
money. 501(c)(4). Organize for Action. The President's own 
agenda, perhaps $1 billion in 501(c)(4) money unreported. 
Beautiful picture of the President standing in front of a 
windmill on the last page of this 501(c)(4). Of course, it 
says, Donate as the first item you see. And then it says 
Organizing for Action is the grassroots movement fighting for 
the agenda Americans voted for in 2012.
    We are millions of people empowering individuals to make 
their voices heard. Climate change comes next. Gun violence 
prevention. Healthcare. Helping millions of Americans learn how 
Obamacare works. Okay, there is something you can have a lot of 
trouble getting them to believe. Fixing our broken immigration 
citizen. A pathway to citizenship. Advocating for a pathway to 
citizenship.
    The list is the President's political agenda; it is 
millions and millions and millions and millions of dollars that 
are not reported as to their source. And I am okay with that. I 
am okay with the small donor being able to give without 
retribution, without the IRS going after the donors, putting 
their list online, having them intimidated for who they 
support. I am okay with that. And you should be too. Americans' 
right to donate without tax deduction at all.
    And make one thing perfectly clear: this is not tax 
deductible, this is not charity contribution; this is a pooling 
of Americans' post-tax money to do what they want to do. It is 
no different, Mr. Cartwright, than if you sat in a room and you 
got 10 guys and you said, you know, let's all put in 50 bucks 
apiece and buy an ad to say what we believe; and you each take 
your $50 and you buy a $500 ad. Would you expect to have to go 
through endless filing and have all your donors disclosed?
    But make no doubt about it, the President did this and did 
it very well. His 501(c)(4) didn't bother to go through the 
abuse because his lawyers knew that they didn't need to; they 
simply self-declared and went on.
    Organize for Action is as political as any organization in 
the world, and to say that it is somehow organizing the way 
Wikipedia does for social welfare is as much hogwash as any 
other organization could dream of. It is advocating the 
President's political policies and promoting the election of 
the candidates who work with him.
    Your only objection is you can't go on the House floor and 
yell about the Koch brothers the way Senator Reid did. You 
can't talk about specific monies because you are not getting to 
know who gave how much.
    This is an amazing debate that has absolutely nothing to do 
with what happened to law-abiding citizens who saw the tax 
code, made an application, and from application one they were 
sent to, among others, Lois Lerner and they were stopped. This 
wasn't about ambiguity. A man who has put more than four 
decades into being at the IRS fully recommended that these be 
approved, and his approval was simply not discussed.
    The facts do not support any of the allegation the ranking 
member made in his opening statement. Our investigation shows 
consistently effective targeting by denial of an answer to 
organizations. You know, the American people deserve answers. 
If anyone thinks for a moment that it takes years to answer the 
question of whether or not you get a 501(c)(4) on even one 
application, if they really believe that, please call or write 
my office, because the fact is even the people who want to be 
on the other side of this know you deserve an answer in days or 
weeks, not waiting years. The months tick by for these 
organizations and the only thing they got were abusive 
questions, questions that in many cases were outside the legal 
or even the reasonable right to request.
    So I would certainly hope, Mr. Chairman, that your ranking 
member and the rest of us on the committee will go back to the 
basics, which has nothing to do with whether a 501(c)(4) 
discloses its contributors; whether or not we change the rules 
one way or the other based on longstanding court decisions; 
whether or not the President's Organize for Action has in fact 
done far more than any Tea Party group ever dreamed of doing 
when it came for advocating political positions. We simply look 
at the facts of the IRS getting involved in an ideological 
political bent.
    The ACLU is here today, and other groups, who have stood on 
both sides, to stop conservatives from taking advantage of 
liberals, liberals taking advantage of conservatives, the many 
taking advantage of the few. And I hope today what we hear is 
the danger of allowing a Federal agency to pick winners and 
losers, regardless of the ideology.
    Mr. Chairman, there can be no more important hearing; that 
is why I came here personally to it. This may be a subcommittee 
hearing, but this is one of the most important hearings we will 
do this year, and I thank you and yield back.
    Mr. Jordan. I thank the chairman
    Does the gentleman from North Carolina wish to be 
recognized? The gentleman is recognized.
    Mr. Meadows. Thank you, Mr. Chairman.
    I would just like to point out, if we could, my esteemed 
colleague from the great State of Pennsylvania was pointing out 
that indeed this rule change is a result of the IG's report. 
And I find that troubling because, quite frankly, we already 
have knowledge that there was a rule change in effect long 
before the IG's report came out, Mr. Chairman. If you would put 
up a slide, if they could put up a slide on the screen here, 
there is an email that we have from June the 14th, 2012, 
basically saying that what we were going to do is, Don't know 
who in your organization is keeping tabs on (c)(4)s, but since 
we mentioned potentially addressing them off plan in 2013, I've 
got it on my radar up and this seems interesting.
    Now, the problem is that if the genesis of this was the 
IG's report, we have a time problem, Mr. Chairman, because the 
IG's report did not get filed and completed until 2013, and yet 
here we have an email from June 14th of 2012. So I think it is 
important that we have a time line and just wanted to correct 
that for the record.
    I yield back.
    Mr. Jordan. Appreciate the gentleman.
    Anyone else wish to make an opening statement? Go ahead.
    Mr. Collins. Thank you, Mr. Chairman.
    I think what is really interesting here is, as has also 
been said, and I think we just continue to jump off and you 
take what is given, is the use of this hearing, as spoken about 
by the ranking member, to lob bombs at this Administration. I 
think all you have to do is go find 93,000 comments that have 
done that for us. I don't think this is a time when we can look 
at what has actually happened and say why is this happening, 
why are we doing this now, and what are we distracting from? We 
are distracting from the real issues and the real problems of 
this country that are a broken health care system, a broken 
system that is driving our businesses and our employees to a 
brink of not understanding why their Federal Government is 
against them, and yet we are still dealing with this and saying 
we don't want you to have a voice.
    Mr. Chairman, this is a good hearing. This is something we 
need to take a part in and realizing that this is an area that 
people care about because they care about our Country and the 
direction that it is in right now. This is why we need to be 
here and, like I said, we don't need this hearing to lob bombs; 
93,000 folks or more have already said this is a bad idea and 
we need to stop it.
    Mr. Chairman, I yield back.
    Mr. Jordan. I thank the gentleman.
    We are pleased to have with us today Ms. Jenny Beth Martin, 
who is the President and Co-Founder of Tea Party Patriots; Mr. 
Gabriel Rottman is a Legislative Counsel and Policy Advisor at 
the American Civil Liberties Union; The Honorable Wayne 
Allard--Senator, good to have you with us--is Vice President of 
Government Relations for the American Motorcyclist Association; 
Ms. Diana Aviv is the President and CEO of the Independent 
Sector; Mr. James R. Mason, III is Senior Counsel at Home 
School Legal Defense Association.
    I might point out an association that my wife and I used to 
contribute money to; I think Mr. Meadows did the same. We home-
schooled--well, I use the term ``we'' lightly; my wife did all 
the work--for several years, so we appreciate your 
organization. Glad to have you with us.
    And Mr. Allen Dickerson is the Legal Director at the Center 
for Competitive Politics.
    We want to thank our distinguished guests. It is the 
practice of this committee to have you stand, raise your right 
hand, and swear you in, so if you would please all stand up.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    [Witnesses respond in the affirmative.]
    Mr. Jordan. Let the record show that each witness answered 
in the affirmative.
    And we will start with the lady. Jenny Beth Martin, you are 
recognized.

                       WITNESS STATEMENTS

                 STATEMENT OF JENNY BETH MARTIN

    Ms. Martin. Chairman Jordan and members of the 
subcommittee, thank you for conducting this hearing today and 
for inviting me to share my story. It is absolutely imperative 
that members of Congress understand what is going on with the 
IRS, what has been going and what is still going on.
    I am holding in my hand an email I received yesterday from 
Tea Party Patriots attorney, an email that was received less 
than 24 hours before our five-year anniversary event today 
across Capitol Hill. This email was received less than 24 hours 
before the deadline for commenting on the proposed IRS 
regulations and this email was received less than 24 hours 
before my testimony here today.
    What does it says? It says that yesterday the IRS finally 
decided, after more than three years and tens of thousands of 
dollars in legal fees and accounting fees, and countless hours 
of volunteer and staff time answering questions and questions 
and questions and more questions from the IRS, that finally the 
IRS has decided to grant us our 501(c)(4) status. We don't have 
a letter yet from the IRS, but they told my attorney in a phone 
call.
    Now, I am happy to receive this information. It is about 
time.
    Mr. Chairman, the question I have is what took them so 
long? Tea Party Patriots is not engaged in any political 
activities. None. We made a conscious decision from the 
beginning not to engage in political activities, and that did 
not keep the IRS from withholding our exempt status for more 
than three years and investigating our organization that entire 
time.
    I am happy and relieved to receive the information, but I 
still wonder what took them so long. We have not engaged in 
political activities. The IRS should have been able to 
determine that within a few months of receiving our application 
in December of 2010. After all, these allegations, which talk 
about the primary purpose for social welfare organizations, 
have been in place since 1959, over a decade before I was born 
and before man landed on the moon.
    Perhaps a reason for the delay of these regulations is that 
the IRS is what we are here today to talk about, the proposed 
regulations from the IRS that they issued just before 
Thanksgiving. If those regulations are enacted, yesterday's 
approval will be moot. The new definition of political activity 
could not be more targeted at Tea Party Patriots if the IRS had 
spent the last three years, two months, and 10 days drafting 
rules specifically to silence us.
    I have attached to my written testimony a the copy of the 
comments we are submitting to the IRS. We outline a great many 
of the constitutional and practical problems with these 
regulations. Let me highlight just a few.
    One of the most egregious is the requirement that we track, 
calculate, report the activity of thousands of volunteers. The 
army of citizens who volunteer for their Country is the 
backbone of every group in America, Tea Party, moderate, or 
progressive. Volunteerism is one of the greatest character 
traits of our Country. These proposed regulations would treat 
volunteers as a problem, annihilating relationships that are 
the heart of an informed electorate.
    Furthermore, Tea Party Patriots provides grants to local 
groups, always requiring the grants are not used for political 
activity. Under the new regulations, a grantee group's decision 
to use its own funds for an event as innocuous as a nonpartisan 
voter registration drive would become our political activity. 
That standard would gut our ability to assist local groups.
    The new regulations would sensor the Internet. Tea Party 
Patriots would not be able to mention any incumbent on our Web 
site within 30 days of a primary or 60 days before a general 
election. We have to scrub our Web site of any mention anywhere 
in it of information just as basic of how elected 
representatives voted on the Affordable Care Act, Federal 
spending, or just historic voting information.
    The proposed rules would attribute to us a value of the 
remarks by our leaders and our volunteers. If, in September of 
this year, The New York Times quoted a volunteer or me about a 
congressman's voting record, we would have to place monetary 
value if The New York Times reported that.
    The proposed rules create cracks in the trust of the 
foundation of our Nation. A Government of the people, by the 
people, and for the people is supposed to trust the people and 
the people should be able to trust our Government. When the 
people are afraid of an agency and they see that agency as a 
bunch of bullies who abuse power, the trust is shattered. Free 
people shouldn't fear a politicized bureaucracy that delves 
into social media and communications to determine what they 
have said, whom they have heard speak, and what they think 
about their Government.
    We can't fill these cracks in the foundation by adding more 
rules to the 67,000 pages of oppressive tax code. We personally 
favor replacing with a flat fair rate, and until then, Mr. 
Chairman, the Government must fulfill its duty and stop the IRS 
from infringing on the rights of the American people to freely 
associate, speak their minds, talk to the press, and petition 
their Government.
    [Prepared statement of Ms. Martin follows:]

    [GRAPHIC] [TIFF OMITTED] T7351.001
    
    [GRAPHIC] [TIFF OMITTED] T7351.002
    
    [GRAPHIC] [TIFF OMITTED] T7351.003
    
    [GRAPHIC] [TIFF OMITTED] T7351.004
    
    [GRAPHIC] [TIFF OMITTED] T7351.005
    
    Mr. Jordan. Thank you.
    I failed to mention five minutes, more or less. We try to 
keep it less, but Ms. Martin did fine; she was just a few 
seconds over. So hopefully we will maintain that. We are going 
to go to Ms. Aviv, and then we will go right down the line.
    Ms. Aviv, you are recognized.

                    STATEMENT OF DIANA AVIV

    Ms. Aviv. Good morning, Chairman Jordan, Representative 
Cartwright, and members of the subcommittee.
    Independent Sector is a leadership forum for charities, 
foundations, and corporate giving programs whose member 
networks collectively represent tens of thousands of 
organizations nationally, locally, and globally. Our membership 
also includes a number of 501(c)(4) social welfare 
organizations. Thank you very much for the opportunity to share 
with you the perspectives of our community today.
    Charitable organizations understand that continued support 
from Americans who give their time and money depends upon the 
public trust in our sector, and that any erosion of their trust 
will ultimately limit our effectiveness and harm those that we 
serve. We are therefore deeply committed to ensuring that all 
charitable nonprofit organizations are governed effectively and 
transparently, maintain maximum accountability, and demonstrate 
highest levels of ethical conduct and fully comply with the 
law.
    As part of our commitment to supporting responsible 
practice, Independent Sector, for some time, has been deeply 
concerned about the rules governing political activity by 
501(c)(4) social welfare organizations and have advocated three 
changes.
    First, it is imperative that a clear definition of 
political activity across all 501(c) organizations be created 
so that exempt organizations and regulators are no longer 
forced to rely on the ambiguous facts and circumstances 
approach to determine whether, and to what extent, political 
activity has actually taken place.
    Secondly, a clear limit should be established for how much 
political activity is permitted by 501(c)(4) organizations. 
Doing so will provide certainty for exempt organizations and 
remove the subjective judgment of case officers at the IRS.
    Thirdly, the rules must ensure that all 501(c) entities 
lawfully permitted to engage in partisan political activity are 
transparent regarding the source of donations used for those 
activities. When clearly defined and within appropriate limits, 
political activity can be an important part of advancing the 
missions of these organizations, but it must be conducted in a 
way that organizes the electorate's right to know who is 
working to influence the outcome of elections.
    We sought and welcome the IRS's recognition of the need to 
improve the current rules, but the recently proposed 
regulations fail to address some of the most serious problems I 
have just outlined. At the same time, in the areas it does 
address, we believe that the IRS has overreached in a deeply 
problematic way. The proposed guidance includes an overly broad 
definition of candidates related political activities that 
conflates partisan with longstanding, widely accepted 
nonpartisan activities.
    For the first time, activities such as nonpartisan voter 
registration efforts, get out the vote campaigns, voter guides, 
and nonpartisan candidates forums that encourage civic 
participation and educate the general public would be 
considered political. Defining nonpartisan voter engagement 
activities as political for 501(c)(4) social welfare 
organizations will have a deleterious cascading effect on 
501(c)(3) public charities. Given the expressed prohibition for 
(c)(3) organizations to engage in candidate-related political 
activity risks sensitive public charities and their funders may 
curtail the activities in order to avoid association with 
activities that the IRS would then deem as political.
    Furthermore, the proposed guidance would define as 
candidate-related political activity any public communication 
that clearly identifies an candidate or any forum where a 
candidate appears within 30 days of a primary or 60 days within 
a general election. This would include any effort to influence 
legislation during the blackout period that refers to an 
elected official who is running for reelection. Such a rule 
would have limited the ability of 501(c)(4) organizations to 
engage with or publicly mention lawmakers during consideration 
of the 700 million top bank bailout bill passed just before the 
2008 election.
    A uniform set of rules that applies across all tax-exempt 
categories will provide predictability and clarity for what 
constitutes political activity, will protect free speech, and 
will encourage civic engagement. Thank you.
    [Prepared statement of Ms. Aviv follows:]

    [GRAPHIC] [TIFF OMITTED] T7351.006
    
    [GRAPHIC] [TIFF OMITTED] T7351.007
    
    [GRAPHIC] [TIFF OMITTED] T7351.008
    
    [GRAPHIC] [TIFF OMITTED] T7351.009
    
    [GRAPHIC] [TIFF OMITTED] T7351.010
    
    [GRAPHIC] [TIFF OMITTED] T7351.011
    
    [GRAPHIC] [TIFF OMITTED] T7351.012
    
    Mr. Jordan. Thank you, Ms. Aviv.
    Mr. Rottman?

                  STATEMENT OF GABRIEL ROTTMAN

    Mr. Rottman. Thank you, Mr. Chairman.
    Chairman Jordan, Ranking Member Cartwright, members of the 
subcommittee, I very much appreciate the opportunity to testify 
today on the troubling rule proposed by the Internal Revenue 
Service. We believe that, if implemented, the sweeping new 
definition of candidate-related political activity in the rule 
will chill a vast amount of debate on matters in the public 
interest.
    By way of illustration, had these rules been in place 
during the presidential race in 2012, the ACLU would have been 
limited in its ability to even mention President Obama or 
Governor Romney during a period covering almost 300 days of 
that year. Were we to do so, even in a completely nonpartisan 
way, it would have counted against our allowance of candidate-
related political activity, too much of which would jeopardize 
our 501(c)(4) status.
    During 30 days before any primary and 60 days before the 
general election, we would have had to purge all such 
communications from our Web site, including thousands of 
individual Web pages, or account for them in our tax filings. 
In fact, this testimony, Mr. Chairman, would have to come down 
just because I mentioned your name.
    The proposed rule would not be an improvement on the 
existing standard. Earlier this month, the ACLU submitted 
comments critical of the current facts and circumstances test, 
the inherent vagueness of which likely led to the use of 
inappropriate criteria in the selection of conservative and 
some progressive groups for undue scrutiny. We further noted 
that the IRS's proposed alternative would make matters worse by 
chilling a legitimate issue advocacy while doing very little to 
address the perceived problem of anonymously funded campaign 
ads. For these and other reasons we have concerns with several 
provisions in the rule.
    We oppose the proposed application of the rule to 
communications merely mentioning a candidate within the 30 days 
before a primary and 60 days before a general election. The 
IRS's proposal is so broad that it would cover such 
communications if they were posted to a Web site before the 
blackout period and kept up during that time. Indeed, in the 60 
days before a general election, remarkably, we would be limited 
in our ability to even mention any political party represented 
in the election. Totally nonpartisan communications like urge 
Democrats and Republicans to unite in support of NSA 
surveillance reform would be covered.
    We also oppose the extension of the definition of 
candidate-related political activity to advocacy communications 
that are the functional equivalent of expressed advocacy. 
Historically, Government regulators have been unable to draw 
appropriate lines between communications urging voters to 
support or oppose a candidate and those that urge action on an 
issue in the public interest. The ACLU itself has repeatedly 
run afoul of this functional equivalence problem. In the 1970s, 
for instance, The New York Times refused to run a sharply 
worded advertisement criticizing then President Richard Nixon 
for opposing court-ordered desegregation. The New York Times 
believed that to be a campaign ad. Communications by groups 
like the NAACP or the National Organization for Women on issues 
like voter identification laws or reproductive rights could 
also quality depending on where and how they run.
    Finally, we have strong concerns with the inclusion in the 
proposed rule of totally nonpartisan voter registration, 
mobilization, and education efforts, and candidate forums 
within the 30/60 day blackout period.
    While the IRS does deserve credit for taking action here, 
the rule unfortunately attempts to cast as broad a net as 
possible, rather than narrowly targeting actual electioneering 
using explicit terms of support or opposition. In America, the 
First Amendment disfavors regulations that suppress protected 
speech to get an unprotected speech. The regulations do exactly 
that; they give the tie to the sensor, not the speaker. 
Regardless of the politics involved, that should be of concern 
to any advocate for the public interest.
    Thank you again for inviting me to testify today.
    [Prepared statement of Mr. Rottman follows:]

    [GRAPHIC] [TIFF OMITTED] T7351.013
    
    [GRAPHIC] [TIFF OMITTED] T7351.014
    
    [GRAPHIC] [TIFF OMITTED] T7351.015
    
    [GRAPHIC] [TIFF OMITTED] T7351.016
    
    [GRAPHIC] [TIFF OMITTED] T7351.017
    
    [GRAPHIC] [TIFF OMITTED] T7351.018
    
    [GRAPHIC] [TIFF OMITTED] T7351.019
    
    [GRAPHIC] [TIFF OMITTED] T7351.020
    
    [GRAPHIC] [TIFF OMITTED] T7351.021
    
    [GRAPHIC] [TIFF OMITTED] T7351.022
    
    [GRAPHIC] [TIFF OMITTED] T7351.023
    
    [GRAPHIC] [TIFF OMITTED] T7351.024
    
    [GRAPHIC] [TIFF OMITTED] T7351.025
    
    [GRAPHIC] [TIFF OMITTED] T7351.026
    
    [GRAPHIC] [TIFF OMITTED] T7351.027
    
    [GRAPHIC] [TIFF OMITTED] T7351.028
    
    [GRAPHIC] [TIFF OMITTED] T7351.029
    
    [GRAPHIC] [TIFF OMITTED] T7351.030
    
    [GRAPHIC] [TIFF OMITTED] T7351.031
    
    [GRAPHIC] [TIFF OMITTED] T7351.032
    
    [GRAPHIC] [TIFF OMITTED] T7351.033
    
    [GRAPHIC] [TIFF OMITTED] T7351.034
    
    [GRAPHIC] [TIFF OMITTED] T7351.035
    
    [GRAPHIC] [TIFF OMITTED] T7351.036
    
    [GRAPHIC] [TIFF OMITTED] T7351.037
    
    [GRAPHIC] [TIFF OMITTED] T7351.038
    
    [GRAPHIC] [TIFF OMITTED] T7351.039
    
    Mr. Jordan. Thank you, Mr. Rottman. We appreciate that.
    Senator Allard.

            STATEMENT OF THE HONORABLE WAYNE ALLARD

    Mr. Allard. Chairman Jordan and Ranking Member Cartwright 
and distinguished members of the subcommittee, thank you for 
inviting the American Motorcyclists Association to speak today 
and discuss the rule proposed by the Federal Internal Revenue 
Service designed to provide guidance to tax-exempt 
organizations.
    The AMA believes this rule will limit our ability to 
communicate with our members and will create a defacto blackout 
period during which our Government will be less accountable to 
the people it serves.
    Currently, the IRS provides a tax exemption for civic leads 
or organizations not organized for profit, but operated 
exclusively for the promotion of social welfare. The AMA is 
exactly that type of organization that lawmakers anticipated 
granting tax-exempt status to when they drafted Section 
501(c)(4).
    The AMA provides enormous social benefit to the 
motorcycling community. As an organization, we sanction about 
3,000 competition recreational events a year, and, sanctioning 
with the AMAm event promoters and track owners agree to use the 
AMA rule book and operate their events in a safe manner with 
set minimum insurance levels. As a result, participants in 
these events know they will be treated fairly and in a safe 
manner.
    On the highway we provide numerous benefits to our members, 
including sanctioning charity rides, which include providing 
insurance and best practices to make the roadways safer for 
riders and drivers, providing roadside assistance to our 
members, and educating and informing our members regarding 
congressional and regulatory actions.
    The AMA represents the interests of our Nation's estimated 
27 million motorcyclists and all terrain vehicle riders. Any 
fact-intensive analysis takes into account all of the facts and 
circumstances of the AMA and its functions would conclude that 
the AMA promotes the social welfare of motor-cross racers, 
recreational off-highway vehicle riders, on-highway 
motorcyclists and drivers. We do not participate in elections. 
Since 1984, the AMA has been classified as a 501(c)(4) 
organization based upon this analysis. However, the IRS new 
guidance would force the AMA either to muzzle its advocacy 
efforts or lose its status as a tax-exempt organization.
    The definition of candidate-related political activity the 
IRS proposes to use is arbitrary and limits free speech. For 
example, any communication mentioning an elected official's 
name is considered political activity during the 60-day period 
before a general election or 30-day period before a primary 
election. This creates an odd situation. The timing of the 
speech is what makes political not the content.
    According to the proposed rule, it even includes material 
without regard to whether the public communication is intended 
to influence the election or some other non-electoral actions, 
such as a vote on pending legislation. As a result, the new 
definition of candidate-related political activity assumes that 
all congressional, regulatory, and executive actions cease 
before an election. We know this is not the case. Legislative 
and regulatory business is conducted right up to an election. 
This creates a defacto blackout period during which citizens 
will find it much harder to gain information about the actions 
of their representatives and Government.
    The U.S. House of Representatives is scheduled to be in 
session for 12 days during the proposed rules blackout. 
Additionally, the reauthorization of MAP-21, our Nation's 
transportation bill, an important vehicle to road safety 
programs, may be debated and voted on during this time. We must 
be allowed to communicate information about such issues to our 
members in a timely manner.
    According to George Mason University's United States 
Election Project, less than 54 percent of eligible voters cast 
a ballot in 2012. This is a decline of more than 3 percent than 
the 2008 presidential election. At a time when the proportion 
of eligible voters casting a ballot is declining, the AMA 
opposes any effort to restrict access to voter registration 
drives, voter guides, and information related to their 
representatives' voting records. In fact, this is a time when 
more voter educational material is needed, specifically 
pertaining to issues Americans care about.
    The proposed rule the IRS seeks to implement will stifle 
nonpartisan speech in a manner that leads to a less informed 
electorate. We believe that the changes proposed will prevent 
the AMA from educating voters and advocating for the social 
welfare of the motorcycling community. Even the IRS agrees, 
stating in the rule itself, more definitive rules might fail to 
capture activities that would or would not be captured under 
the IRS traditional facts and circumstances approach.
    It is our understanding that the IRS hoped to curtail 
electoral activity, but this rule is limiting our ability to 
educate our members about congressional and regulatory activity 
in keeping with our objective to promote social welfare of the 
motorcycling community.
    Thank you very much for your time and consideration of the 
American Motorcyclist Association's views.
    [Prepared statement of Mr. Allard follows:]

    [GRAPHIC] [TIFF OMITTED] T7351.040
    
    [GRAPHIC] [TIFF OMITTED] T7351.041
    
    Mr. Jordan. Thank you, Senator.
    Mr. Mason.

                STATEMENT OF JAMES R. MASON, III

    Mr. Mason. Mr. Chairman, ranking member, and honorable 
members, thank you for the honor of being invited to testify 
before this committee.
    Home School Legal Defense Association is a social welfare 
organization that is tax-exempt under Section 501(c)(4) of the 
Internal Revenue Code. I oversee HSLDA's compliance with 
numerous State and Federal tax laws, campaign finance laws, 
lobbying laws, and other areas of Government affairs. In a 
previous job I worked on several important campaign finance 
cases in which Federal courts, including the Supreme Court of 
the United States, struck down regulations of political speech 
as being unconstitutional under the First Amendment. The 
constitutional issues and those in many other campaign finance 
cases are closely related to the constitutional issues raised 
by the IRS's proposed rules.
    HSLDA is a national organization that has as its primary 
purpose advancing and protecting the right of parents to 
educate their children at home. We have over 80,000 member 
families in all 50 States and the District, and we communicate 
with many thousands more by various channels, including email, 
Web site, news media, and personal appearances at conferences.
    Many social welfare organizations, like ours, from across 
the political spectrum are dedicated to giving a voice to the 
people so that together they can affect social change. These 
social welfare organizations, like ours, are made up of 
millions of people who wish to speak with one voice on issues 
of importance to them.
    One of HSLDA's main activities is monitoring State, 
Federal, local legislation. When a bill, ordinance, regulation, 
or policy change is proposed that will affect the ability of 
parents to home school, we frequently alert our members and 
friends about the proposal. Sometimes we urge them to contact 
their elected officials, by name, to express their support or 
opposition to the proposed legislation. We communicate with 
home schoolers about legislative issues to advance our policy 
goals in ways that we believe are in the public interest.
    Under current law, we need not worry about whether a 
particular elected official is also a candidate or whether an 
election is near when legislation is introduced. But under the 
proposed rules, 30-and 60-day pre-election windows, what would 
be an issue advocacy communication on Monday would be a 
candidate-related political activity on Tuesday without 
changing a single word. Even worse, if the issue advocacy 
communication is posted on our Web site on Monday, by some 
strange IRS alchemy it would be magically transformed into a 
candidate-related political activity on Tuesday.
    The IRS justifies its expansive definition of candidate-
related political activity by the need for bright-line rules. 
We agree that a bright-line rule is preferable to placing IRS 
agents in charge of deciding whose speech is protected and 
whose is not. But according to the notice of proposed 
rulemaking, ``The IRS acknowledges that the approach taken in 
these proposed regulations, while clearer, may be more 
restrictive and more permissive than the current approach.''
    In some cases a bright-line rule may be a good thing, but 
not all bright-line rules are created equal. In this case, the 
aspects of the bright-line rule that are ``more restrictive'' 
actually abridge protected free speech. In the interest of 
clarity, the IRS approach has captured too much speech. Issue 
advocacy does not become expressed advocacy based on arbitrary 
dates on the calendar, and the need to speak out on issues of 
public importance does not decrease as election day approaches. 
Indeed, issue speech becomes all the more valuable because the 
public and officials are paying closer attention.
    The IRS's bright-line rule is designed to prevent 
impermissible use of tax-exempt status, but, because it 
captures too much speech, the proposed rule is contrary to 
decades of Supreme Court precedence that hold that the better 
approach is to err on the side of regulating less speech, even 
if it means missing some that might properly be subject to 
regulation to avoid improperly abridging any protected speech. 
As the Court has said, such a prophylaxis upon prophylaxis 
approach to regulating expression is not consistent with strict 
scrutiny. The desire for a bright-line rule hardly constitutes 
the compelling State interest necessary to justify any 
infringement on First Amendment freedom.
    The IRS proposed rules would damage HSLDA, other social 
welfare organizations, and the public's ability to keep abreast 
of issues that are important to a healthy civil Government. The 
proposed rules are also contrary to the free speech clause of 
the First Amendment. We strongly oppose the proposed rules.
    Thank you.
    [Prepared statement of Mr. Mason follows:]

    [GRAPHIC] [TIFF OMITTED] T7351.042
    
    [GRAPHIC] [TIFF OMITTED] T7351.043
    
    [GRAPHIC] [TIFF OMITTED] T7351.044
    
    [GRAPHIC] [TIFF OMITTED] T7351.045
    
    [GRAPHIC] [TIFF OMITTED] T7351.046
    
    Mr. Jordan. Thank you, Mr. Mason.
    Mr. Dickerson.

                  STATEMENT OF ALLEN DICKERSON

    Mr. Dickerson. Thank you, Chairman Jordan, Ranking Member 
Cartwright, members of the committee. I am going to try not to 
repeat everything you have already heard from the panel, but I 
do want to make a few points.
    One is because this involves a regulation of the Internal 
Revenue Service, one might be forgiven for thinking this 
involves, in some ways, the collection of the Nation's revenue. 
It does not. There is no reason to believe one way or the other 
that revenue will rise if this is adopted or that it will fall 
if this is adopted, and the reason for that was already made 
clear by the chairman of the full committee earlier; the 
organizations we are talking about do not receive tax 
deductible money.
    So if this doesn't involve the internal revenue, why 
exactly is the IRS involved in the first place? And isn't it 
odd that something called candidate-related political activity 
would be regulated by the IRS at all, given that we already 
have a commission, called the Federal Election Commission, 
which would seem to be somewhat more competent in this area?
    I would suggest that the reason for this is simple and 
structural. When this Congress gave the Federal Election 
Commission ``exclusive jurisdiction'' over the civil remedies 
and enforcement of the Nation's election laws, it made a 
structural choice. There are six members of the Commission, 
unlike the usual five, and they are evenly divided between the 
two parties. The reason for this is simple: no one party may, 
using the Federal Election Commission, take a partisan 
advantage.
    The IRS does not have that safeguard. I will leave it to 
the committee to draw its own conclusions.
    One of the things the FEC has that the IRS doesn't is the 
institutional confidence that comes from 40 years of regulation 
in this area. And going back to this idea of clarity, and 
whether these rules in fact provide clarity, I practice 
generally in the Federal election area, mostly in campaign 
finance cases, and there you have real clarity. You have 
financial cutoffs. Something is a type of communication if you 
spend $10,000 on it, not if people volunteered and we somehow 
have to value their time in this very amorphous and 
unpredictable manner.
    We know that something is directed at an electorate if it 
can be found under FCC regulation to reach 50,000 voters of the 
person being identified; unlike here, where it says that 
something is candidate-related if it is intended--and for the 
lawyers in the room, we all know the wiggle room in there--that 
is intended to reach 500 persons. The difference between a 
broadcast ad that is taken out in a member's home State 
intended to reach that person's electorate and something put on 
You Tube is enormous and is a trap for the unwary and for small 
organizations.
    So in that sense I would suggest that even if the facts and 
circumstances test lacks clarity, and it most certainly does, 
there are other areas here where the clarity is perhaps worse. 
In this attempt to create a patina of predictability and a 
patina of sensible regulation, you actually have buried in the 
NPRM a number of things that are very troubling. For instance, 
how do we know when someone is a candidate? Well, under the FEC 
rules, we know someone is a candidate when they spend money as 
a candidate through an authorized candidate committee. How do 
we know someone is a candidate under this? Well, when someone 
proposes them as a candidate for office, full stop.
    Theoretically, if I were to suggest Mr. Cartwright as the 
next vice presidential nominee of the Democratic party, I would 
have converted him into a candidate for that office. Now, 
presumably this could be dealt with later on in the process, 
but the fact that the IRS saw fit to use that as its standard 
suggests if not a political intention, at least a lack of 
institutional competence in this area, which perhaps give us a 
certain amount of pause about the IRS regulating this in the 
first place.
    And I think it is important to deal with the elephant in 
the room, which is disclosure. The fact, as I said earlier, is 
that there is no revenue purpose to this rule. It is about the 
disclosure of people's donors. And I want to tackle that head 
on. The reason 501(c)(4)s do not disclose their donors is 
because Congress said so. When the Internal Revenue Code was 
passed, it created criminal penalties for the unauthorized 
disclosure of the donors to these organizations. And the reason 
for that is that it has always been understood that 501(c)(4)s 
are the beating heart of civil society. These are the 
organizations, like the NRA and the Sierra Club, which go out 
there and take unpopular positions and move the national debate 
and make this a vibrant and functioning democracy.
    Requiring unpopular organizations to give up their donor 
list to public scrutiny is not only contrary to Congress's 
intention in the Internal Revenue Code, it is also contrary to 
constitutional law. In a number of very hard-fought victories 
during the civil rights era, the Supreme Court said unanimously 
that organizations could not be required to give up their 
donors unless there was a strict and important overriding 
governmental interest. And the reason for that was that the 
Court noted the ability to speak is undeniably held by the 
ability to associate, and chilling the ability to associate 
inevitably makes it less likely that speech will be effective 
and that 501(c)(4)s will continue to be able to do their job as 
civil society.
    Thank you.
    [Prepared statement of Mr. Dickerson follows:]

    [GRAPHIC] [TIFF OMITTED] T7351.047
    
    [GRAPHIC] [TIFF OMITTED] T7351.048
    
    [GRAPHIC] [TIFF OMITTED] T7351.049
    
    [GRAPHIC] [TIFF OMITTED] T7351.050
    
    [GRAPHIC] [TIFF OMITTED] T7351.051
    
    [GRAPHIC] [TIFF OMITTED] T7351.052
    
    [GRAPHIC] [TIFF OMITTED] T7351.053
    
    [GRAPHIC] [TIFF OMITTED] T7351.054
    
    [GRAPHIC] [TIFF OMITTED] T7351.055
    
    [GRAPHIC] [TIFF OMITTED] T7351.056
    
    [GRAPHIC] [TIFF OMITTED] T7351.057
    
    [GRAPHIC] [TIFF OMITTED] T7351.058
    
    [GRAPHIC] [TIFF OMITTED] T7351.059
    
    [GRAPHIC] [TIFF OMITTED] T7351.060
    
    [GRAPHIC] [TIFF OMITTED] T7351.061
    
    [GRAPHIC] [TIFF OMITTED] T7351.062
    
    [GRAPHIC] [TIFF OMITTED] T7351.063
    
    [GRAPHIC] [TIFF OMITTED] T7351.064
    
    [GRAPHIC] [TIFF OMITTED] T7351.065
    
    [GRAPHIC] [TIFF OMITTED] T7351.066
    
    [GRAPHIC] [TIFF OMITTED] T7351.067
    
    [GRAPHIC] [TIFF OMITTED] T7351.068
    
    [GRAPHIC] [TIFF OMITTED] T7351.069
    
    [GRAPHIC] [TIFF OMITTED] T7351.070
    
    [GRAPHIC] [TIFF OMITTED] T7351.071
    
    [GRAPHIC] [TIFF OMITTED] T7351.072
    
    [GRAPHIC] [TIFF OMITTED] T7351.073
    
    [GRAPHIC] [TIFF OMITTED] T7351.074
    
    [GRAPHIC] [TIFF OMITTED] T7351.075
    
    [GRAPHIC] [TIFF OMITTED] T7351.076
    
    [GRAPHIC] [TIFF OMITTED] T7351.077
    
    [GRAPHIC] [TIFF OMITTED] T7351.078
    
    [GRAPHIC] [TIFF OMITTED] T7351.079
    
    [GRAPHIC] [TIFF OMITTED] T7351.080
    
    [GRAPHIC] [TIFF OMITTED] T7351.081
    
    [GRAPHIC] [TIFF OMITTED] T7351.082
    
    [GRAPHIC] [TIFF OMITTED] T7351.083
    
    [GRAPHIC] [TIFF OMITTED] T7351.084
    
    [GRAPHIC] [TIFF OMITTED] T7351.085
    
    [GRAPHIC] [TIFF OMITTED] T7351.086
    
    Mr. Jordan. Well said, Mr. Dickerson. That is why freedom 
of assembly and freedom of speech are in the same darn 
amendment; they are very, very important.
    Before turning to the vice chair of the committee, I would 
just recognize--I don't know who is for this rule. We have the 
Center for Competitive Politics and the independent sector 
opposed to it; we have home schoolers and Harley riders opposed 
to it; we have the Tea Party and the ACLU. I mean, who is for 
this? We could stop right now. This thing is done. Get rid of 
this crazy thing. But we probably can't do that because members 
of Congress like to talk, too, and they want to ask some 
questions. So we are going to go first to the vice chairman, 
Mr. DeSantis, the gentleman from Florida.
    Mr. DeSantis. Well, maybe after this presentation the 
Administration will agree to just pull the rule. I was very 
impressed with what I saw. Look, I think this rule is going to 
have a chilling effect on speech. I think it is going to 
facilitate the type of targeting that we have seen, 
unfortunately.
    And really of concern to me particularly is I don't think 
Government should be in the speech police business generally, 
but certainly you shouldn't have the IRS doing this; and this 
committee has uncovered emails back in 2012, one email from a 
Treasury Department official to, among others, Lois Lerner at 
the IRS that said don't know who in your organization is 
keeping tabs on (c)(4)s, but since we mentioned potentially 
addressing them off plan in 2013, I've got my radar up and this 
seemed interesting. And, of course, Steven Miller has testified 
about trying to ``level the playing field'' between 501(c)(4) 
groups and 527 organizations based on pressure from Senator 
Levin and others in Congress. So, to me, I think that the IRS 
needs to get out of this entirely.
    But you talk about a 30/60 day window. That is precisely 
the time where people need to be able to engage on public 
issues. I mean, it is just absolutely ridiculous, but I think 
what it does is it stems Government's desire of Government 
muzzling of speech in this context. It is really rooted in the 
desire of incumbents to control discourse, because if you can 
control who can speak, the people who are here now are going to 
be more likely to be returned to office; and if more people can 
speak and get involved, then it becomes more competitive. It is 
more difficult to continue to get returned if you are held 
accountable.
    I appreciate Mr. Dickerson talking about the anonymity and 
the donors disclosure. I just wanted to ask you, Mr. Rottman, 
because I read in your testimony you do talk about that. Is it 
your group's position that there is value in having these 
social welfare groups for them to be able to keep their donors 
anonymous?
    Mr. Rottman. Congressman, yes. The short answer is yes. The 
right to anonymous political speech, as Mr. Dickerson said, was 
hardened during the civil rights era, but it goes back to the 
founding of our Country.
    Mr. DeSantis. And why was it? I assume you agree with NAACP 
vs. Alabama, where basically Alabama had a law that required 
donor disclosure if you wanted to operate in Alabama. So the 
NAACP would have to have disclosed their donors. So just for 
people who may not be familiar with that case, why would that 
have a chilling effect on First Amendment speech at that time?
    Mr. Rottman. Well, it was quite literally an attempt to 
intimidate the NAACP into leaving the States. By disclosing the 
membership list, it would have left the members of the NAACP 
open to reprisal, which, at the time, would be completely 
expected. So the Court found that in that case, if there is a 
chance of harassment or reprisal, then the right to an honest 
political speech is constitutionally guaranteed.
    Mr. DeSantis. Yes. And I would just remind folks who may be 
watching the Federalist papers were anonymous. I mean, this was 
the one most potent mechanism that the Founding Fathers used to 
get the Constitution ratified in New York, which was the 
critical thing at the time, because if they had lost in New 
York, they probably would have lost and wouldn't have gotten 
ratification. So Hamilton didn't sign the SAs, Madison didn't 
sign the SAs, and John J. didn't sign the SAs under their name, 
they signed it as Pubulous.
    Of course, during the American Revolution you had all kind 
of pamphleteers. This was one of the main ways where people 
were able to be educated about these things. Many of those were 
written anonymously or written under pseudonyms. So I think 
that there is just such a desire in this town to control 
everything that goes on that we end up seeing proposed rules 
like this, but I will just say I really appreciate the chairman 
having the hearing.
    Thanks to all the witnesses. I think you all made very good 
and logical statements, and I think we can stop this rule from 
taking effect in Congress and just make sure that we want a 
robust debate. We want people getting involved in political 
education and issue education, and that is part of what being 
an American is all about.
    So I yield back the balance of my time.
    Mr. Jordan. I thank the gentleman, would recognize the 
gentleman from Pennsylvania, the ranking member.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And I thank you for the comments from all of the witnesses. 
I listened, I learned, and I appreciate your attendance today.
    I was born in 1961, and I say that because it was two years 
before I was even born that this Country, the United States of 
America, placed restrictions on political activity by 
501(c)(4)s. So anyone listening to this hearing who thinks that 
this new rule being proposed is introducing a novel concept is 
sadly mistaken; this has been part of the American fabric since 
two years before I was born, and I am getting pretty long in 
the tooth myself.
    What we are up to right now is trying to craft a rule that 
answers what everybody has been screaming about on Capitol 
Hill, you know, is the IRS unfairly targeting right wing 
groups? We know that there were BOLOs on right wing groups. We 
also know that there were BOLOs on left wing groups. We haven't 
sorted through the statistics to see what percentage of the 
right wing groups were targeted, what percentage of the left 
wing groups were targeted. Maybe some day we will engage in 
that exercise. But what we are up to right now is try to make 
clearer rules, because even though the FEC does know a lot 
about political campaign finance rules, since 1959 it has been 
the charge of the IRS to handle some of that as well.
    Now, Ms. Aviv, I particularly appreciated your testimony, 
because rather than scrap everything, what you have done is you 
have come up with some clear and cogent suggestions on 
tightening this rule up. They appear on page 6 of your written 
testimony, and rather than go through them, I just want to 
thank you for those intelligent suggestions.
    We also had Senator Allard. I appreciate your testimony 
here and I want to say it is an honor to have a former United 
States senator testifying before our subcommittee. I also 
appreciated your points about the time restrictions. I think 
that is worth looking into. I think you make some sensible 
comments. Having served here on Capitol Hill, you know about 
the business that goes on here, the workaday work that we do 
here in dealing with interest groups and their concerns, and I 
appreciate your comments and I hope that your thoughts will be 
taken into consideration.
    Remember, everyone, this is a proposed rule; it is 
malleable, it is subject to change. We are not wasting our time 
and our breath here because there are people paying attention 
to your comments, and, Senator Allard, I appreciate yours as 
well.
    Now, Ms. Aviv, I wanted to follow up with you a little bit. 
As I mentioned at the outset, really what my concern is about 
is the elephant in the room that Mr. Dickerson mentioned, and 
that is the dark money, the dark money. I mean, on the one hand 
we have concerns about First Amendment, freedom of speech and 
political expression; on the other hand we worry, we worry in 
this Country about undisclosed donors, who they are, where they 
are from, are they even from this Country, the people pumping 
money into who gets elected in this Country. And I wanted to 
follow up with you, Ms. Aviv. Why do you think there is public 
concern about the increase in partisan activity funded by dark 
money?
    Ms. Aviv. Mr. Cartwright, I am going to come at this 
question from the perspective of the charitable sector. I 
started off my testimony by saying that we depend on the public 
trust. We know that the public likes charitable organizations, 
501(c)(3) and 501(c)(4) organizations, to be involved in 
educating about the issues, communicating with law makers, with 
elected and appointed officials, and all of that. They are also 
very clear that they don't want us involved in partisan 
political activity, in determining who is sitting there. But 
once people are sitting there, for us to engage.
    Our concern with 501(c)(4) social welfare organizations is 
that they have the right to do both of those activities.
    Mr. Cartwright. Right. And you said that. In fact, you 
wrote in The Washington Post that this proposed rule could be 
an important first step in pushing dark money into the sunlight 
and providing IRS examiners with objective tools for reviewing 
applicants for tax exemption. Did you say that?
    Ms. Aviv. Yes, but we hoped that is what it would do. Our 
concern is that these rules, as currently crafted, don't do 
that. We have an equal concern that we simply throw out these 
rules and nothing happens. We think that the current law is not 
workable and we think that these rules, as crafted, are the 
wrong way to go.
    Mr. Cartwright. Well, thank you for that.
    Mr. Chairman, I would like to enter her op ed in The 
Washington Post for the record.
    Mr. Jordan. Without objection.
    Mr. Cartwright. Mr. Chairman, I also got an email from 
Richard Painter, Professor Painter from yesterday's hearing. He 
said, so far, I have not heard facts suggesting involvement in 
this scandal of anyone at the White House. I hope the rhetoric 
in the course of this investigation will not get ahead of the 
facts.
    And I would ask permission to enter this email into the 
record.
    Mr. Jordan. Without objection.
    Mr. Cartwright. I yield back.
    Mr. Jordan. The gentleman from Florida is recognized for a 
response.
    Mr. DeSantis. Mr. Chairman, could we maybe put into the 
record the number of times that officials from the IRS visited 
the White House, if we are going to put that in? I know the 
committee has previously uncovered that. Maybe we can just note 
that for the record, if that is okay.
    Mr. Jordan. That is fine. That is fine. Without objection.
    Mr. Jordan. The gentleman from Tennessee is recognized.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    Though I have lived in Tennessee for over 20 years, Senator 
Allard, I grew up in a town you may have heard of, a little 
north of your home State, Sturgis, South Dakota. I guess you 
probably advocate for a few of the AMA folks there.
    Mr. Allard. Yes, sir.
    Mr. DesJarlais. And I wouldn't be surprised if maybe you 
have been there.
    Mr. Allard. I have not, but we have a lot of members who go 
there.
    Mr. DesJarlais. Okay.
    The American Motorcyclist Association is not a political 
party, correct?
    Mr. Allard. It is not a political party, that is correct.
    Mr. DesJarlais. Okay. And it is an organization dedicated 
to advocacy for the motorcycle community, right?
    Mr. Allard. It is a social welfare organization and we 
promote responsible and safety behavior on our roads and when 
they are out on our public lands.
    Mr. DesJarlais. So what do you think, then, the big concern 
about the AMA advocating for issues and talking to elected 
officials would be?
    Mr. Allard. There shouldn't be any concern because we are a 
social welfare organization. We are prohibited from being 
partisan in our activity. And I might give you an example. We 
do list all the candidates for office on our Web site and we 
also send out a questionnaire and we put that questionnaire on 
the Web site verbatim; we don't edit it or anything else. We 
are just there to educate our members, then they can understand 
what the members are doing in the Congress and they can 
understand our issues. The highway transportation bill, for 
example, comes up during that dark period and we have a lot of 
issues in there, and we can't mention a bill carried by so-and-
so. That would preempt us from doing that.
    Mr. DesJarlais. And so this would end that?
    Mr. Allard. Yes.
    Mr. DesJarlais. Ms. Martin, the ranking member now, for two 
days in a row, has indicated that we really don't know if this 
targeting was a bipartisan process, that conservative groups 
were targeted and liberal groups were targeted. I saw you 
making some notes after that statement. Do you have any 
information that would help the ranking member with who was 
targeted and who wasn't?
    Ms. Martin. The inspector general's report said that 100 
percent of conservative groups were targeted.
    Mr. DesJarlais. And the number of liberal groups that were 
targeted, I believe all of them received their status?
    Ms. Martin. They all received their status, including one 
for a 501(c)(3) named after the President's father, Barack 
Obama Foundation was a (c)(3), and it was approved by Lois 
Lerner.
    Mr. DesJarlais. How long does it typically take an 
organization to receive tax-exempt status?
    Ms. Martin. Prior to late 2009, it took somewhere between 
two to four months, maybe six months at the most. After the 
beginning of 2010 or very late 2009, it seems 2010, it took 
years, at least for organizations like mine with Tea Party and 
Patriots in their name, or conservative organizations.
    Mr. DesJarlais. Why do you think that you were targeted 
specifically? What do you think the underlying purpose was. 
Just open and honestly, why do you think you were targeted?
    Ms. Martin. I think we were targeted because people in the 
IRS and other parts of this Government did not want to hear 
from the people. They wanted us to be quiet.
    Mr. DesJarlais. Do you really believe it was the IRS, the 
IRS doesn't want you to speak, or do you think maybe it was 
somebody higher up the chain?
    Ms. Martin. You know, I want to see what the evidence says. 
I try my best not to jump to conclusions with this. It 
certainly seems that there were quite a few people who did not 
want us speaking, and they have done everything they can to 
silence us.
    Mr. DesJarlais. Do you think it was a lot of conservative 
people that didn't want to see you speaking?
    Ms. Martin. I would hope not. I have a feeling there may 
even be some Republicans who, from time to time, don't want to 
hear us speaking, because we are nonpartisan and we hold both 
parties accountable.
    Mr. DesJarlais. Okay. After going through what you have 
been through the last several years, your organization, other 
conservative groups, how does it make you feel after finally 
getting tax-exempt status, after being put off for years, how 
does it make you feel now that they want to invoke this rule?
    Ms. Martin. So just before coming here to testify, I 
receive a call or our attorneys receive a call saying we have 
finally been approved. If these regulations go into effect, 
that approval is absolutely meaningless. The organization, Tea 
Party Patriots, has lived under these rules for the past three 
years. We may be one of the only national organizations who 
truly knows the effect of what it is like to keep the mountains 
of paperwork, to watch every single word you say, whether you 
even say Obamacare or the health care law, because using the 
word Obama in Obamacare may count against you. It is oppressive 
and it is very, very frustrating. I didn't want to have to go 
through that. I don't want any organization to go through it, 
even one who disagrees with me on all of the issues. No 
organization in America should have to go through this.
    Mr. DesJarlais. And I think we have a table full of them 
represented here today, so thank you.
    I yield back.
    Mr. Jordan. I thank the gentleman.
    Just real quickly before going to the gentleman from 
Michigan. So the ranking member mentioned 1959, but it seems to 
me the history for 50 years, from 1959 to 2009, we didn't 
really have a problem, and then suddenly we have a huge problem 
and we have a new rule that is proposed offline. So for 50 
years this thing worked fine, but something changed in 2009, 
right?
    Ms. Martin. In 2009, five years ago, to today, this 
movement, the modern day Tea Party movement started.
    Mr. Jordan. But something changed at the IRS which happened 
to correspond with the modern day Tea Party movement. All 
right, thank you.
    The gentleman from Michigan is recognized.
    Mr. Bentivolio. Thank you very much, Chairman Jordan, 
Ranking Member Cartwright and distinguished members of the 
subcommittee. I want to thank all of the witnesses who have 
taken time from their busy schedules to come and testify today 
about this very, very important issue.
    Ms. Jenny Beth Martin, you and I go way back, right? In 
fact, I got involved in politics because of the Tea Party.
    Ms. Martin. Yes.
    Mr. Bentivolio. And I remember then jokingly saying if we 
really wanted to control speech, we should hook up our 
politicians to lie detectors; it would be the quietest campaign 
season in history, right? And we have been talking about the 
First Amendment here this morning, which is one of our basic 
rights, put into the Constitution by our Founding Fathers. It 
is a fundamental right and a pretty important one, isn't it? 
This amendment gave the people the right to prohibit the 
Federal Government from exercising their authority over freedom 
of speech. And the Founding Fathers did note that this right 
was not absolute and must operate under reasonable 
restrictions. But the intent was for the States to establish 
these standards, not the Federal Government.
    I am guessing all of you here today know what the First 
Amendment says, correct? Everybody?
    Do you think the employees at the IRS know what the First 
Amendment says, Ms. Martin?
    Ms. Martin. I would imagine no, they do not, because if 
they did, there is no way they would not have done--if they 
knew what the First Amendment said, they wouldn't have done 
what they have done to my organization and others like ours.
    Mr. Bentivolio. Mr. Rottman?
    Mr. Rottman. I am not sure that that is actually the 
question that needs to be answered. Whether they do or not, the 
fact is that the rule, as proposed, could be misused to target 
groups on both the right and the left, and that should be a 
concern to all of us.
    Mr. Bentivolio. I understand. Lawyer, right?
    Mr. Rottman. Yes.
    Mr. Bentivolio. Okay.
    [Laughter.]
    Mr. Bentivolio. First Amendment, Senator, do you think the 
IRS----
    Mr. Allard. I am not a lawyer, by the way, I am a 
veterinarian.
    Mr. Bentivolio. There you go.
    Mr. Allard. But let me point out I think there probably are 
some employees there that understand. I think, if they reflect 
the total population, a lot of employees that don't. And in 
regard to this rule, I think they completely ignored the First 
Amendment.
    Mr. Bentivolio. Ms. Aviv?
    Ms. Aviv. Sir, I think that is the IRS employees are 
charged with fulfilling their responsibilities according to the 
rules. The rules are so unclear that using facts and 
circumstances allows individual agents to make personal 
determinations about what is right and wrong. We think that we 
need greater clarity so that there is less discretion left up 
to them.
    Mr. Bentivolio. In the interest of time, I think you would 
probably say pretty much what they said.
    In the hearing we had back in May of last year, I asked Mr. 
Schulman of the IRS, who is a lawyer, by the way, if he knew 
the First, Second, and Nineteenth Amendments. He told me he 
didn't have the Constitution memorized. Do you think IRS agents 
should have a right to training in the Constitution and Bill of 
Rights? I think they should know basically, even though they 
are attorneys, what the Constitution says. Would you agree, Mr. 
Rottman? I mean, you know, case law, constitutional law, that 
is for lawyers, but basically?
    Mr. Rottman. The fundamental problem is they are given too 
much discretion under both the existing rule and the proposed 
rule, and that discretion is going to lead to problems, 
regardless of who is in office.
    Mr. Bentivolio. But it is a basic right. I mean, a 
constituent came to me one time and asked, Mr. Bentivolio, I 
don't like this type of noise coming from this particular 
church, and I said, well, if I did that, I would have to pass a 
law that said get rid of church bells, and I am not going to do 
that because it is freedom of religion, and I am here to 
protect those rights, just like freedom of speech, right?
    I don't really have that many questions, but, Ms. Martin, 
we go a long way. I think you are responsible for my and much 
of America's great political awakening that took place since 
2009. I want to thank you for that. Don't let this get you 
down; we are fighting the good fight. Our job here in Congress 
is to protect those rights, not take them away.
    Ms. Martin. Thank you.
    Mr. Bentivolio. Thank you very much, Mr. Chairman. I 
appreciate it.
    Mr. DeSantis. [Presiding] The gentleman yields back.
    I am going to recognize the ranking member for three 
minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    So I want to address this idea of everything coming up 
since 2009 now. What was I doing talking about 1959 if 
everything started in 2009? Well, I want to first invite 
everyone's attention to 1979. I was born then; I was graduating 
high school then. In 1979, an IRS general counsel memorandum 
referred to the ``perennially troublesome question'' of whether 
the regulations implementing 501(c)(4) should be changed. In 
fact, Mr. Chairman, I would like to enter that memo from 1979 
in the record.
    Mr. DeSantis. The memo will be entered into the record.
    Mr. Cartwright. So it was already a perennially troublesome 
question in 1979. I will take it forward to 2004, also before 
2009. Members of the American Bar Association's--forgive me for 
mentioning lawyers; evidently, that is out of fashion. The 
American Bar Association's Committee on Exempt Organizations 
proposed that the IRS design a ``simplified, clear, and 
predictable alternative test for 501(c)(4) qualification.'' So 
they were concerned about that at the ABA in 2004. And then in 
2006 George Washington University Law School Professor Miriam 
Galston observed in 2006, ``Since the late 1970s, there appears 
to have been no serious consideration given to changing either 
the 'primarily' aspect of the exempt purpose standard in the 
regulations or the IRS's application of the standard in its 
rulings or other pronouncements.''
    So I am here to tell you that for anyone to say that there 
was some kind of epiphany that this Nation had in 2009----
    Mr. Jordan. Would the gentleman yield for a question?
    Mr. Cartwright. I yield.
    Mr. Jordan. My point was this. In the 50 years, I don't 
ever recall reading stories, hearing any information about it 
taking three years to get approved when you applied for 
whatever tax-exempt status you were applying for. That was my 
point. In 50 years, it never took anyone three years to get 
approval, but since 2009 it has taken three years for hundreds 
of groups. That was my point.
    Mr. Cartwright. Well, I certainly will credit the chairman 
with being much more elderly than I am and have a fuller view 
of history.
    Mr. Jordan. Well, do you have any evidence that people were 
denied their tax-exempt status and had to wait three years from 
1959 through 2009? If you can produce that, produce it.
    Mr. Cartwright. You know, that is a fundamental flaw of 
this entire Oversight and Government Reform Committee and all 
of its subcommittees, is that we constantly say, well, there is 
no evidence that the President isn't a murderer, so therefore 
we feel justified in suggesting----
    Mr. Jordan. Mr. Chairman, I didn't bring up the year 1959, 
the ranking member did. And I am saying that based on this 
committee's investigation, we know the delays happened after 
2009.
    Mr. Cartwright. And do you have evidence that there were no 
groups that had to wait two or three years, say, in the 1970s 
or 1980s? Do you have evidence of that, Mr. Jordan?
    Mr. Jordan. I don't.
    Mr. Cartwright. So, therefore, it must have happened or it 
must not have happened. Let's stop engaging in this there is no 
evidence of as proof of the opposite.
    Yield back.
    Mr. DeSantis. The gentleman from Ohio, the chairman, is 
recognized.
    Mr. Jordan. I would just ask also enter into the record a 
letter sent yesterday, excuse me, two days ago, from the 
Treasury, Alastair Fitzpayne, Assistant Secretary for 
Legislative Affairs, sent to the chairman of the Ways and Means 
Committee, and would highlight on page 2, beginning in 2010, 
2010, beginning in 2010, it doesn't say 1959 anywhere in this 
letter. Beginning in 2010, this is from the Treasury, Treasury 
and the IRS received requests from members of Congress and 
others to consider engaging in rulemaking to clarify the rules 
regarding social welfare organizations. Beginning in 2000, the 
very first sentence in that portion of the letter, Mr. 
Chairman. So I would ask that this be entered into the record.
    Mr. DeSantis. Without objection.
    Mr. Jordan. Thank you, Mr. Chairman.
    Let me start with Mr. Rottman. Mr. Rottman, just, again, to 
highlight how ridiculous this rule, as proposed, is, let's say 
this October the ACLU wanted to sponsor a debate between Mr. 
Cartwright and Mr. DeSantis on the Second Amendment, host that 
event. Could you, in fact, do that?
    Mr. Rottman. In October we could, but we would have to 
count it against our permissible allotment of candidate-related 
political activity. And if that, in the aggregate, was to go 
over our permissible allotment, then our 501(c)(4) exempt 
status would be jeopardized.
    Mr. Jordan. Okay. Could you even, after the fact, let's say 
a local college was hosting an event, you weren't. Could you 
comment on the event after it took place? Could you send 
someone there and comment on what Mr. DeSantis and Mr. 
Cartwright had to say about the Second Amendment? Could you do 
that?
    Mr. Rottman. It would be the same issue.
    Mr. Jordan. Counting against you.
    Mr. Rottman. It would be counted against us, yes, even if 
we didn't mention your name, actually, because the topic itself 
could be at issue in the election, and that would qualify under 
the rule as clearly identifying a candidate.
    Mr. Jordan. Okay, what if you just wanted to host a 
candidate, let's say for some reason Mr. Cartwright moved to 
Florida and wanted to run against Mr. DeSantis. Could you 
sponsor a debate against those two candidates this October, 
short time before the election?
    Mr. Rottman. Again, it would be counted.
    Mr. Jordan. Yes. Okay. And that is the absurdity of it. I 
think about, in Ohio, our primary election is in early May, and 
on tax day, if a Tea Party organization wants to have me come 
speak at their event, they would be in the same boat. Same kind 
of thing. Again, just how ridiculous this rule is.
    Let me go to Ms. Martin. This is something that bothers me, 
too, the timing of things we now get from our Government, this 
Administration. Are you familiar with Katherine Engelbrecht, 
Ms. Martin?
    Ms. Martin. Yes, sir.
    Mr. Jordan. And Ms. Engelbrecht testified in front of this 
committee a couple weeks ago, did an outstanding job. And what 
we discovered in that hearing was that Ms. Engelbrecht, for 20 
years her and her husband had ran a successful business. She 
had never had any interaction with OSHA in that 20 years. She 
had never had any interaction with the FBI in that 20 years. 
She had never had any interaction with ATF in that 20 years. 
And her only interaction with the IRS in that 20 years was 
filing her annual return.
    And then she starts to do the same thing you do, she 
applies for tax-exempt status for her organization called True 
the Vote, and suddenly her world changes. After she applies, 
the FBI visited her six times. Not in the course of the 
criminal investigation of the Justice Department, before that 
started, but between when she applied and when the current 
investigation started, the FBI visited her six times, two in 
person, four on the phone. ATF showed up at her business; OSHA 
showed up at her business; and the IRS audited both her 
personal and business records.
    And if you remember that hearing, the Democratic side said 
that was just one big coincidence. Shazam, it just happened.
    Now, you come to us today and you tell us comment for the 
rule ends today. You are testifying today. You applied for tax-
exempt status three years ago, and suddenly, yesterday, you get 
an email from the IRS saying, by golly, we finally got around 
to you, right? We finally figured it out, you are now approved.
    Ms. Martin. Exactly.
    Mr. Jordan. One big coincidence again.
    Ms. Martin. It is apparently pure coincidence and no 
political motivation and no smidgeon of corruption.
    Mr. Jordan. You know why I think it took so long for them 
to approve you, and do you know why I think they went after Ms. 
Engelbrecht, the full weight of the Federal Government came at 
Ms. Engelbrecht? Why do you think it took them three years for 
you?
    Ms. Martin. I think that--I cannot answer what was going 
through their mind. All I can do is say that looking----
    Mr. Jordan. Hazard a guess why.
    Ms. Martin. I think that they wanted me to be able to come 
in here and, if I were asked did you receive your status 
approval, I would have to testify yes.
    Mr. Jordan. But I am asking about--I think you get 
harassed. I think you received the treatment you did, I think 
Ms. Engelbrecht received the treatment she did because you are 
effective. Right? You are actually making a difference in the 
political process, just like Katherine Engelbrecht was. And 
they couldn't have that. No, we are going to have the full 
weight of the Federal Government come down on you. We are going 
to make you wait three years, which from 1959 to 2009 took 
weeks or months.
    Ms. Martin. That is correct. The time involved to do this, 
no organization should have to go through this. When we should 
have been able to talk about issues or Supreme Court hearings, 
instead, I would be working all day long and literally go back 
to a hotel room and spend another few hours dealing with 
accountants and attorneys to make sure I complied. And the 
questions they were asking me, regardless of the targeting, 
which happened, regardless of the questions they were asking me 
are the questions they will be asking every single person on 
this panel, and the time and the money involved is enormous.
    Mr. Jordan. I am a little over time, but if I could, Mr. 
Chairman.
    Mr. Mason, I just thought of this, because I remember when 
this happened, I think it was the early 1990s, there was a 
proposed change in law that would have essentially put home 
schoolers out of business. Parents wouldn't have been able to 
exercise that option. Because I remember hearing about it on 
the radio and I remember my wife calling me up and saying, I am 
on the phone and she is calling friends who also home schooled, 
and they mobilized in a way that I think this place had 
probably never seen before.
    If this rule was in place, could you have had the same 
impact that you were able to? And you won that debate; that law 
was stopped, proposed law was stopped. If this rule is in 
place, could you have that same kind of impact that you had 
back in the 1990s?
    Mr. Mason. It would be very doubtful because everything 
that we did was contacting elected officials, and if--that was 
H.R. 6, by the way----
    Mr. Jordan. It was. What year was that? Refresh my memory, 
Mr. Mason, what year was that?
    Mr. Mason. Ninety-four. Yes, 1994. My organization at that 
time wasn't real savvy in email and Internet, as probably most 
of us were not, so a lot of it was done by real grassroots 
effort, phone trees and just people contacting each other; you 
get the word out and it gets spread. And a lot of it was 
contact your member of Congress and oppose this. I believe we 
shut down the congressional switchboard.
    Mr. Jordan. Sure did.
    Mr. Mason. If that had occurred, especially during 
somebody's primary election, it would have counted against us 
as candidate-related political activity.
    And on that score I would like to address one point. Every 
minute would have to be tracked by every employee of a social 
welfare organization because you would have to be able to 
determine what amount of time and overhead expenses were being 
used for these candidate-related political activities. It is an 
enormous amount of effort and paperwork, and when you add on to 
that 50 States, all regulating political speech, all regulating 
lobbying, all regulating charitable solicitations, the amount 
of paperwork that an organization like ours has to do and the 
amount of care we have to take to avoid getting in trouble is 
enormous.
    Mr. Jordan. Thank you, Mr. Mason.
    Mr. Chairman, I yield back.
    Mr. DeSantis. The chair recognizes the chairman of the full 
committee, Mr. Issa.
    Mr. Issa. Thank you, and thank you, Mr. Jordan. That was a 
good line of questioning to help, I think, explain the 
burdensome nature of this.
    Mr. Rottman, you are not normally seen as a right wing 
neanderthal Republican. Would that be a correct assessment?
    Mr. Rottman. I think that is fair.
    Mr. Issa. And the history of the ACLU is one of being as 
independent and as willing to object to Congress's or the 
Administration's actions, regardless of popularity, isn't that 
true?
    Mr. Rottman. Absolutely.
    Mr. Issa. I am very proud of the ACLU. At some times my 
current pride is not as great as my historic pride. I might 
think back to the internment of American citizens in World War 
II, and the ACLU bravely said it may be popular, but it is not 
right.
    The ACLU has always stood for a number of constitutional 
amendments and support, and we always hear about the First 
Amendment, but for a moment give me your answer on freedom of 
association. And I will give you an environment. If I am a 
homeowners association, I have 200 homes and everybody is 
paying in to a homeowners association with after-tax money, and 
that association is doing the usual good social work of 
deciding whether or not we should have gates in our community, 
or whatever the other items are, whether we are going to re-
slurry the road; and then there is a proposed power line coming 
through our community and we say, well, we need to use a little 
of our money, from which we got no tax deduction, and we need 
to be able to meet and we need to be able to push against this 
absurdity that will diminish our values of our home.
    Is there really any difference between that freedom of 
association and the basic freedom of association of Ms. 
Martin's group that gets together and holds up copies of the 
Constitution and says, God, we have to save our Country, we 
have to explain to people that this is what our Founding 
Fathers left to us as inalienable rights?
    Mr. Rottman. Mr. Chairman, I think that brings up exactly 
the concern with this proposed rule, and that is that it 
doesn't deal with partisan political activity, it extends the 
definition of partisan political activity to fundamentally 
nonpartisan issue advocacy. And you are absolutely right, the 
rights to freedom of speech and the corollary right to freedom 
of association are essential when we are talking and debating 
about the issues of the day, regardless of which side of the 
political spectrum we land on. And that fundamentally, it would 
be one thing if we were talking about partisan politicking. 
This rule is not about partisan politicking, it is about 
regulating fully protected issue advocacy by social welfare 
groups.
    Mr. Issa. Senator, you and I have a long history of looking 
at these issues in minute detail. You have looked, undoubtedly, 
at the question of what 527s can do and how they do it. 
Essentially, isn't the biggest difference that if you are a 
501(c)(4), like Ms. Martin--congratulations, by the way. After 
only three years you are an overnight success. But when we look 
at these things, aren't we really having a discussion about 
what entity can advocate for or against an elected official and 
what entity can do other things, but not advocate for or 
against an elected official? Isn't that really what defines the 
difference between a 527, of which there are many, and super 
PACs and the like, and 501(c)(4)? In your opinion, after years 
of looking at it.
    Mr. Allard. Well, 501(c)(4)s are prohibited from 
participating in partisan activity.
    Mr. Issa. And, therefore, the intent of the Federal 
Election Commission, something where Lois Lerner worked for a 
period of time, is 527s, they get to look at; other groups that 
advocate for or against, try to bring down somebody like you or 
me or promote, by bringing us down, the person running against 
us, that is an activity in which the FEC and Congress has 
determined that there needs to be transparency as to donors, 
right?
    Mr. Allard. That is correct.
    Mr. Issa. And when you get to issue advocacy, including 
Organize for Action, President Obama's well connected 
organization, it isn't just his picture on the cover, it is him 
raising the money for it, they are prohibited from trying to 
defeat me directly; they can simply turn out people who 
disagree with my views, right?
    Mr. Allard. That is correct.
    Mr. Issa. So the President is well within his rights 
because it is issues. Does anyone think that the attempt by the 
IRS to organize the 501(c)(4) isn't essentially to bring it 
within the FEC? All of you at the table, I would love to have 
each of your responses, because, to me, that is what I see, is 
I see these rules designed to say to, and I am going to call it 
my homeowners association for a moment, although Ms. Martin's 
new organization could follow in that too, they just basically 
want to bring us under the Federal Election Commission as 
though our organizations exist for purposes of electing or 
defeating federal officers.
    Right down the row.
    Ms. Martin. Chairman Issa, after the 2012 election, and 
because of the questions we were being asked by the IRS, we 
actually did form a 527 super PAC, just so that, when we got 
close to an election, we can mention a candidate's name. We 
truly, truly have been living under these regulations for three 
years, and now, today, we don't have to, and we may have to 
again very soon.
    Mr. Issa. Mr. Rottman?
    Mr. Rottman. I am not sure. I think that the regulations, 
they go even further than that, right?
    Mr. Issa. You mean they are worse than I----
    Mr. Rottman. What they do is they conflate fundamentally 
nonpolitical issue advocacy with partisan politicking, and they 
make that the definition of candidate-related political 
activity. So I am not sure that it is an administrative 
question; I think it is fundamentally erring on the side of 
suppressing speech in order to get at absolutely anything that 
could be problematic, as opposed to erring on the side of 
caution and erring on the side of free speech.
    Mr. Issa. So similar to putting in Federal agents in 
broadcast studios to see whether the new reporting rose to 
political activity, maybe.
    Mr. Rottman. Actually, we came the opposite way on that, 
but----
    Mr. Issa. You thought it was okay to go in there and see if 
they were being fair and balanced at MSNBC?
    Mr. Rottman. We didn't feel that it was coercive, what the 
SEC was doing, and, therefore, if it is not coercive, then 
there is no First Amendment issue.
    Mr. Issa. Yes. No, a Federal agent sitting in my office 
never intimidated me.
    Senator?
    Mr. Allard. We are basically a social organization----
    Mr. Issa. That advocates for helmet laws.
    Mr. Allard. And safe driving and responsible behavior, 
whether it is on public lands or----
    Mr. Issa. But that leads to legislation, rulemaking, and so 
on.
    Mr. Allard. That is correct.
    Mr. Issa. So you would fall right in the trap of they want 
to call you political because you would like to make sure that 
dirt bikers have access to dirt.
    Mr. Allard. We are prohibited by Federal law from being 
active in partisan politics.
    Mr. Issa. But this rule would sweep you into calling 
partisan politics just trying to make sure that dirt bikers 
have dirt.
    Mr. Allard. That is correct.
    Mr. Issa. Ms. Aviv?
    Ms. Aviv. Mr. Chairman, we are focused on (c)(3) and (c)(4) 
organizations, and we see 501(c)(4) social welfare 
organizations as different than 527s, since their primary 
purpose is supposed to be a social benefit purpose, but can 
engage in some partisan political activity. Our concern with 
this rule is what has been expressed by I think everybody on 
this panel, which is that it goes too far and it doesn't 
address the problems that have been talked about in the media 
and by this committee and others in the last number of months, 
which is to define what political activity is, to limit the 
scope of what IRS agents have by way of personal opinions or 
judgment calls because there are clear criteria of what 
political activity includes, and not to include longstanding 
activities that are part and parcel of the American fabric that 
(c)(3) organizations can do and (c)(4) organizations have long 
been doing.
    Mr. Issa. Thank you.
    Mr. Mason?
    Mr. Mason. Thank you, Congressman. I think that it may be a 
little different than what you think, and it is probably worse. 
In the Federal Election Campaign Act, all of these kinds of 
regulations have a long history, it is well litigated, there is 
a very precise distinction between issue advocacy and expressed 
advocacy. That has been frustrating to those who think that 
more speech should be regulated because, under the FEC case 
law, less speech is regulated. So now it is not that it is 
bringing speech into the FEC, it is taking that speech and 
putting it into the regulatory authority of the IRS. So instead 
of having a complaint made with the FEC, you get an IRS agent 
in to decide whether you are engaging in issue advocacy or 
expressed advocacy, and I think that is just enormously wrong-
headed.
    Mr. Issa. Thank you.
    Mr. Dickerson?
    Mr. Dickerson. Well, chairman, I appreciate the suggestion. 
My organization, a very few days after the comment period was 
opened, filed a comment suggesting that if what we are really 
concerned about here is specificity and clarity, what we should 
do is just say political activity is that which the FEC 
considers political activity. You have to file a report if you 
do an independent expenditure. That has been fully legally 
vetted up to the Supreme Court of the United States; there is a 
dollar number on it. That is your candidate-related political 
activity. If you import those regulations in, you don't have 
any of these constitutional problems, you have a clear dollar 
value that can be applied against your overall budget. We think 
it is a very elegant solution and I would suggest those draft 
regulations.
    Mr. Issa. Thank you.
    Mr. Chairman, I appreciate the indulgence in time and I 
think the point was well made that what Ms. Lerner and others 
at the FEC have tried to expand the FEC, but even if you expand 
the FEC, much of exactly what this rule would capture would be 
outside their jurisdiction, outside the speech that they have 
any influence in; and I think that is the reason that, from the 
President on down, those who objected to Citizens United and 
wagged his finger at the U.S. Supreme Court in the well of the 
House are trying to get a back door of something that even 
Congress never legislated in the post-Nixon era with the 
Federal Election Commission. So I certainly think this has been 
a fruitful discovery. I am just sorry for the ranking member 
that he has been so wrong in this hearing. I yield back.
    Mr. DeSantis. The chairman yields back and we will 
recognize the ranking member for five minutes.
    Mr. Cartwright. If the chairman hadn't said that, I would 
have had to check and make sure I was in the right hearing 
room.
    Mr. Issa. You are in the right hearing room.
    Mr. Cartwright. Ladies and gentlemen, I am a freshman here 
in Congress, I am not afflicted with the decades inside the 
Beltway that many of my brothers and sisters are afflicted 
with, and what I have come here to Washington to do is to try 
to seek consensus, try to look for the ways that we can come 
together on issues in Washington, D.C. that affect the entire 
Nation. Believe it or not, although it doesn't sell newspapers, 
we do agree on a great many things here in the Congress, and I 
am looking to expand those areas.
    And I think that this hearing is so important because what 
we are struggling with here is how to solve this problem. You 
know, when you leave things undefined, when you leave things 
vague and ambiguous, that is when these fistfights break out; 
that is when, if you have left undefined what political 
activity is prohibited by this 501(c)(4) and then the IRS, they 
are at their wit's end trying to make the definition, well, 
then, if they decide to go one way or the other, one end of the 
political spectrum ends up being creased and raising the alarm 
and screaming bloody murder, and that is what we have been 
hearing for the last year and a half.
    But it is not a new problem, it is something that Americans 
have understood. That ambiguity, that uncertainty, that 
vagueness has existed since 1959. Commentators have mentioned 
it through the 1970s and through the 1990s and through the 
2000s, and it behooves us to come together and talk about these 
things. And we have talked about this. There is this tension 
where, on the one hand, we have the First Amendment rights to 
engage in political activity and free speech, and on the other 
hand we have this concern that there is going to be dark money, 
there is going to be undisclosed money financing elections, and 
we don't know who is behind the money that got this or that 
candidate elected.
    I know all of you see that tension and you understand it, 
and, Ms. Martin, I want to congratulate you not only on getting 
your 501(c)(4), but also on getting your 527. As we know, here 
in the United States 527 organizations can engage in political 
activity, and they do disclose their donors. And that is a 
very, very important point not to be missed, that disclosing 
your donors is required in 527 organizations.
    I am here to say protecting dark money has to stop. 
Chairman Issa was here saying, well, the Democrats do that too, 
and that is well and good, and I think it has to stop on both 
sides. This is not just about finger-pointing between Democrats 
and Republicans, it is about making our Nation better, making 
our democracy better. We are the shining light, we are the 
beacon for the world on how democracy is supposed to work. 
Let's make it work better.
    And what I want to do is I want to run down the panel 
quickly, because I want to get a good sense from you. And we 
have heard great comments from all of you, including Senator 
Allard, Ms. Aviv, Mr. Dickerson, all of you. But I want to get 
a sense. Raise your hand if you think--I am going to ask it two 
ways. Do you think we should absolutely not have more specific 
rules on how 501(c)(4)s are allowed to engage in political 
activity? Should we just not have more specificity and clearing 
up the ambiguities or should we just eliminate all control?
    How many of you, raise your hand if you think we ought to 
have better, more specific rules. Okay, seeing three hands out 
of six.
    And raise your hand if you think we ought to just have no 
control over what the 501(c)(4)s can do in terms of political 
activity. Okay, I am seeing no hands.
    So I think we are in agreement that there has to be control 
over the dark money, and I thank you for appearing here today 
and making that clear.
    Mr. DeSantis. Would the gentleman yield for a question?
    Mr. Cartwright. I yield for a question.
    Mr. DeSantis. With dark money, so would you have dissented 
in the NAACP vs. Alabama case, where the Supreme Court struck 
down Alabama's forced disclosure of donors to groups like the 
NAACP, who were unquestionably engaged in public issues, not 
simply that we would define, but of the utmost seriousness and 
importance, and that ability to conduct anonymous speech was 
critical not only in terms of martialing resources in the 
African-American community. Imagine if you were a white 
individual who had sympathy. To be able to stay anonymous 
allowed you to probably help more than maybe you just didn't 
have the courage to come out and do it on your own. So would 
you have wanted to uphold that Alabama statute in order to 
force the disclosure in that situation?
    Mr. Cartwright. No, I think not, and I think that is a 
great question, Ron. I am glad you asked it. It is something 
that has to go into the mix. We have to strike the right 
balance, because on the one hand we have to protect the people 
in Alabama who, at that time, were doing whatever they could 
think of to rebel against the oppressive conditions and the 
violent atmosphere and climate there, but, on the other hand,--
--
    Mr. Jordan. Would the gentleman yield?
    Mr. Cartwright.--you don't want to give a blank check to 
dark money, and I think we all agree on that, as the panel 
does.
    I yield back.
    Mr. DeSantis. Thanks for answering the question.
    The chair now is going to recognize Mr. Meadows from North 
Carolina for five minutes.
    Mr. Meadows. Thank you, Mr. Chairman. I will be very brief. 
I want to apologize to each of you; I had a markup. We have 
been following this, our staff has been following it, so I had 
a markup to go. But I would encourage the gentleman from 
Pennsylvania to quit using dark money. Since when is free 
speech dark money? And I am tired of us. It is like nails on a 
chalkboard when I hear that, because when we really look at it, 
it is not dark money, it is moms and dads giving money that, 
quite frankly, they don't have, because they believe in this 
Country. And we need to make sure that we do that.
    So that I am not redundant in the questions that may have 
already been asked, I am going to yield the balance of my time 
to the gentleman from Ohio, Mr. Jordan.
    Mr. Jordan. Thank you, and I appreciate the gentleman 
yielding, and a great point. Was it dark money that funded the 
Federalist papers? I mean, this is ridiculous. And what the 
gentleman suggests is it is okay for some people not to 
disclose, but other groups need to disclose, and we are going 
to let the IRS decide which ones those are. That is the 
gentleman's premise. That is the scariest thing in the world.
    Mr. Cartwright. Would the gentleman yield for a question?
    Mr. Jordan. Yes. You have had more time than any other 
member on the committee, but yes, go ahead.
    Mr. Cartwright. Well, we are not talking about letting the 
IRS decide anything. In fact, it is very much the opposite.
    Mr. Jordan. That is what this rule is about. Why do you 
think we have six witnesses, including the Democrat-requested 
witness, Ms. Aviv, who said this rule is wrong?
    Mr. Cartwright. Just let me finish the sentence. What we 
are talking about is crafting a rule that takes away unfettered 
discretion from the IRS so that they have bright lines to 
follow, and then we don't get into these fistfights. That is 
all my point is.
    Mr. Jordan. And I am sure we are all confident that will 
actually take place if they move in that direction.
    Mr. DeSantis. Would you yield just for one second?
    Mr. Jordan. I would be happy to. It is amazing, I am 
actually the chairman of this committee and I have to yield?
    [Laughter.]
    Mr. DeSantis. Well, bright-line rules are great, but I like 
Amendment 1, U.S. Constitution bright-line, Congress shall make 
no law----
    Mr. Jordan. Well said. Thank you, Mr. Chairman.
    I would ask to enter into the record a piece that Mr. 
Dickerson probably think is well written as well. Bradley 
Smith, a guy that Mr. Dickerson and I both know, has an 
outstanding piece in today's Wall Street Journal, and I am 
actually going to read from this, which I normally don't do 
when it is my time to ask questions and during my five minutes. 
But this is important because this gets at why it started now, 
why it wasn't 1959, why it was now. And Mr. Smith's point is 
the smoking gun in the targeting of conservative groups has 
been hiding in plain sight, it has been members of Congress who 
have asked the IRS, who have pushed the IRS to do exactly what 
they did, harass people like Jenny Beth Martin and her 
organization for three years.
    And I am just going to read the bullet points that Mr. 
Smith so nicely put in his piece.
    January 27th, 2010, not 1959, January 27, 2010, President 
Obama criticizes Citizen United in the State of the Union 
address and asked Congress to correct the decision.
    February 11th, 2010, Senator Chuck Schumer says he will 
introduce legislation known as the Disclose Act to place new 
restrictions on some political activity by corporations and 
force more public disclosure of contributions to 501(c)(4) 
organizations. Mr. Schumer says the bill is intended to 
``embarrass companies.'' Not a Republican saying that, Senator 
Chuck Schumer saying that, embarrass companies out of 
exercising their rights in recognizing Citizens United.
    Soon after, March 2010, Mr. Obama publicly criticizes 
conservative 501(c)(4) organizations engaging in politics. In 
his August 21 radio address, he warns Americans about shadowy 
groups with harmless sounding names.
    Mr. Mason, are you a shadowy group?
    Mr. Mason. I don't believe so, but I might have to check 
with my colleague.
    Mr. Jordan. Senator Allard, is the Motorcyclists 
Association a shadowy group?
    Mr. Allard. Certainly not.
    Mr. Jordan. I mean, this is amazing.
    September 28, 2010, Mr. Obama publicly accuses conservative 
organizations posing as not-for-profit social welfare and trade 
groups.
    Mr. Mason, are you just a poser? Are you just posing or are 
you a real social welfare group?
    Mr. Mason. We have been a real social welfare group for 
decades, doing the same business for many, many years.
    Mr. Jordan. Helping lots of families, thousands and 
thousands of families across the Country.
    October 11, 2010, Senator Dick Durbin asks the IRS to 
investigate. Dick Durbin, Democrat from Illinois, I should have 
added that, asks the IRS to investigate Crossroads GPS and 
other organizations.
    April 2011, White House officials confirm that Mr. Obama is 
considering an executive order that would require all 
Government contributors to disclose their donations to 
politically active organizations.
    February 16th, 2012, seven Democratic Senators, Michael 
Bennett, Al Franken, Jeff Merkley, Mr. Schumer, Senator 
Shaheen, Senator Udall, Senator Whitehouse, write to the IRS 
asking for them to investigate conservative 501(c)(4) 
organizations. That is why they couldn't approve you. Democrat 
Senators said no, don't keep investigating. That is why you had 
to wait three years. That is why you get approved the day 
before the comment period is up.
    March 12th, 2012, the same seven Democrats write another 
letter asking for more investigation of other conservative 
groups.
    July 27th, 2012, Senator Carl Levin writes one of several 
letters to then-IRS Commissioner Doug Schulman seeking a probe 
of nine conservative groups.
    August 31st, 2012, in another letter Senator Levin calls it 
is fair to investigate and prosecute targeted organizations 
unacceptable. What? Senator Levin says the IRS was failing to 
target and investigate organizations. You waited three years. 
What Senator Levin didn't know was the very thing he had been 
asking for was going on.
    December 14th, 2012, ProPublica receives Crossroads GPS's 
2010 application for tax-exempt status.
    April 9th, 2013, Senator Whitehouse convenes the Judiciary 
Committee on crime and terror to examine nonprofits. He alleges 
that nonprofits are violating Federal law by making false 
statements about the activities of donors using shell companies 
to PACs to hide donor identities.
    May 10th, 2013, Senator Levin announces the permanent 
Subcommittee on Investigation will hold hearings on ``the IRS's 
failure to enforce the law.''
    November 29th, February--I mean, it just continues. I will 
stop because I had two more bullet points, which shows how 
extensive this was. All, again, happening not in 1959, but 
starting January 27th, 2010.
    Mr. Chairman, again I ask for unanimous consent to enter 
this fine piece by Mr. Smith into the record.
    Mr. DeSantis. Without objection, it shall be entered into 
the record.
    Mr. Jordan. And I yield back all that remaining time.
    Mr. DeSantis. Oh, yes. Thank you.
    At this point, the chair will recognize the gentleman from 
Virginia.
    Mr. Connolly. I thank the chair.
    By the way, Ms. Martin, does your organization have its 
tax-exempt status?
    Ms. Martin. As I said in my opening statement, just 
yesterday, after three years, two months, and 10 days, and the 
day before this hearing, we got a call from the IRS saying we 
would be granted it. We still don't have the letter.
    Mr. Connolly. Okay. So whatever that attempt to silence you 
was seems to have failed, is that right?
    Ms. Martin. I am sorry, what?
    Mr. Connolly. You were indicating in your testimony that I 
was at earlier that there was some conspiracy to silence your 
voice.
    Ms. Martin. I didn't say there was a conspiracy to silence 
my voice, I said there was a silencing effect with the way that 
we were treated.
    Mr. Connolly. Ah. Okay.
    Ms. Martin. And there will be a silencing effect of any 
organization who has to do this, especially when they have to 
find out how volunteers spend their time, what they say, and 
what they do. At which point do you determine whether a 
volunteer is still affiliated with your organization or acting 
as an independent and free American?
    Mr. Connolly. Thank you.
    As somebody who was very involved, before your time, in 
anti-war protests and expressing dissent during the Vietnam War 
era, I am very sensitive to the idea that the Government would 
ever attempt to silence voices, even dissenting voices. So even 
though we probably have very little in common politically, one 
thing we do have in common is the absolute commitment to making 
sure all voices are protected in the United States of America. 
I am not persuaded that there is any active attempt to squelch 
your voice, but should there be I assure you Democrats, 
certainly this Democrat, will be on your side.
    Mr. Rottman, I heard your testimony too, and, forgive me, I 
had to leave; I had a markup that just ended in the House 
Foreign Affairs Committee, otherwise I would have been here for 
all of your testimony. But isn't the issue here about in terms 
of who has what tax-exempt status and what the rules are, 
doesn't it really boil down to whether or not we want to 
disclose who our donors are?
    For example, you were complaining about whose name could be 
invoked and who you might use. But isn't that really about 
whether you wish to disclose your donors or not? I mean, don't 
we have an awful lot of tax-exempt organizations that have 
filed who consciously want to make sure that they can protect 
the anonymity of who funds them?
    Mr. Rottman. I would say two things. I would say, first of 
all, that this debate may flow from the concern over the lack 
of disclosure of donors to groups that are engaged in partisan 
political activity. But the proposed rule at the IRS goes far 
beyond that and it covers a vast amount of legitimate issue 
advocacy that has nothing to do with partisan politicking. That 
is the concern.
    Mr. Connolly. So it overreaches, you are saying.
    Mr. Rottman. It overreaches and it also would do very 
little to tamp down on the phenomena that caused it to be 
proposed.
    Mr. Connolly. Well, let me ask you another question. As I 
said to Ms. Martin, I am a child of the 1960s and 1970s and was 
very involved in dissent; a different kind of dissent, but 
dissent. And I did see the Government try to squelch that 
dissent. I saw the Government infiltrate organizations that 
were simply trying to express their point of view about a 
terrible war. So it does happen and we have to be always on our 
guard to make sure it doesn't happen ever again.
    But I am also an English Lit major, and I always wondered 
whether that would come in handy here in Congress. And to an 
English Lit major words mean something. So let me try out on 
you, Mr. Rottman. I am reading Section 501(c)(4) of the 
Internal Revenue Code, and it says, civil leagues organizations 
not organized for profit, but operated exclusively for the 
promotion of social welfare.
    What does the adverb exclusively mean to you? I mean, here 
is a simple Wikipedia definition: to the exclusion of others; 
only or solely. Not 60 percent. When I say to my wife, ours is 
an exclusive relationship, it doesn't mean 60 percent; the 
other 40 percent I am free to sort of roam. It is exclusively a 
relationship.
    Primarily means for the most part or mainly. And what I 
find in this debate is we have sort of lost track of what the 
English language means. Exclusively does not mean mostly.
    Mr. Rottman. Congressman, can I just jump in?
    Mr. Connolly. Yes, of course. Please.
    Mr. Rottman. Well, you are absolutely right that the 
statute says exclusively and the regulations say primary 
purpose. The definition of political intervention, for 60 
years, has been limited as closely as possible to partisan 
politicking. This rule has very little to do with partisan 
politicking. It would allow the same type of activity that is 
ongoing right now, but at the same time it would cover a vast 
amount of nonpartisan issue advocacy, and that is the concern 
that you are hearing from both the right and the left.
    Mr. Connolly. I wish I had a little more time. I would just 
say this is something we have to clear up either in the law or 
with regulations, but exclusively doesn't mean for the most 
part. That is not what the word, the adverb means. You can look 
it up in any dictionary. Primarily does mean that.
    Mr. Rottman. We don't disagree. In fact, we have supported 
an expressed bright-line that would make it very clear, and 
easy to apply by the IRS, between partisan political activity 
and legitimate issue advocacy, and that bright line would end 
the need for hearings like this and the current controversy.
    Mr. Connolly. And just a final point I would say, Mr. 
Rottman, because I think you make a good point, but remember it 
is not just partisanship that is the issue, it is political. It 
is political involvement. And when you say I am exclusively a 
social welfare organization, but what you really mean is I am 
actually, for the most part, a political organization, that is 
a different matter. And I think we have to get these 
definitions right, and I think some legislative relief, I 
think, is frankly going to be in order.
    Mr. Rottman. I agree completely, but I would say, though, 
that partisan politicking aside, if you are engaged in 
political activity like anti-war protests, you have a right to 
do that anonymously, and that right should be protected 
strenuously.
    Mr. DeSantis. The gentleman's time has expired.
    Mr. Connolly. I thank the chair.
    Mr. Jordan. Mr. Chair?
    Mr. DeSantis. The chairman is recognized.
    Mr. Jordan. Just real quickly.
    Mr. Mason, does Home School Legal Defense engage in 
exclusive activity to better home schooling for the families 
you represent?
    Mr. Mason. We have other things that we do as well.
    Mr. Jordan. But it is all about home schooling.
    Mr. Mason. Yes.
    Mr. Jordan. And, Mr. Allard, does the Motorcyclists 
Association, are you exclusively focused on better roads, 
better helmet laws because you care about exclusively doing 
things for the motorcyclists who are part of your organization?
    Mr. Allard. That is correct. We are a motorcyclist 
organization.
    Mr. Jordan. And, Ms. Martin, I bet your organization is 
exclusively about defending the United States constitution and 
the principles that you think make America great, is that 
correct?
    Ms. Martin. Yes, sir.
    Mr. Jordan. Yes. So we are fine, exclusive is the right 
word. We are all fine. But this new rule would say, uh-uh, now 
you have big problems, now you have big problems, because it 
tries to define what political--that is, again, why this thing 
is so absurd and why everyone across the political--as I said 
before, from the Tea Party to the ACLU, from the home schoolers 
to the Harley riders, everyone knows this rule is bad. Everyone 
knows it except this Administration. Everyone except this 
Administration. And this is why this hearing was important and 
why we had such a great panel.
    I yield back, Mr. Chairman.
    Mr. DeSantis. Well, thanks for that. And I really 
appreciate the witnesses coming. I think you all did a 
wonderful job, and I think clearly this rule cannot stand; it 
is way over-broad, it will chill core First Amendment speech. 
And I know we are going to be moving legislation through 
Congress; hopefully the Senate will agree.
    But at the end of the day we need to be able to speak, 
people need to be able to pool their resources. And the thing 
that amazes me is you chill these 501(c)(4)s from getting 
involved in different issues. Guess what? That actually gives 
more power to people who are very wealthy, who can just stroke 
an individual check on their own. So you are not making it more 
democratic, you are making it more difficult to speak.
    This committee stands adjourned.
     [Whereupon, at 11:37 a.m., the subcommittee was 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC] [TIFF OMITTED] T7351.087

[GRAPHIC] [TIFF OMITTED] T7351.088

[GRAPHIC] [TIFF OMITTED] T7351.089

[GRAPHIC] [TIFF OMITTED] T7351.090

[GRAPHIC] [TIFF OMITTED] T7351.091

[GRAPHIC] [TIFF OMITTED] T7351.092

[GRAPHIC] [TIFF OMITTED] T7351.093

[GRAPHIC] [TIFF OMITTED] T7351.094

[GRAPHIC] [TIFF OMITTED] T7351.095

[GRAPHIC] [TIFF OMITTED] T7351.096

[GRAPHIC] [TIFF OMITTED] T7351.097

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
